No. 20-___
IN THE

Supreme Court of the United States
————
CITY OF FAIRBANKS, JAMES GEIER, CLIFFORD AARON
RING, CHRIS NOLAN AND DAVE KENDRICK,
Petitioners,

v.

MARVIN ROBERTS, GEORGE FRESE,
KEVIN PEASE AND EUGENE VENT,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
JOSEPH W. EVANS
LAW OFFICES OF
JOSEPH W. EVANS
P.O. Box 519
Bremerton, WA 98310
(360) 782-2418
joe@jwevanslaw.com

MATTHEW SINGER
Counsel of Record
SCHWABE WILLIAMSON &
WYATT, P.C.
420 L Street, Suite 400
Anchorage, AK 99501
(907) 339-7125
msinger@schwabe.com

Counsel for Petitioners
November 20, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
In Heck v. Humphrey, 512 U.S. 477 (1994), this
Court held that a plaintiff cannot bring a claim under
42 U.S.C. § 1983 for allegedly unconstitutional conviction or imprisonment unless they can prove that the
underlying criminal proceedings terminated in their
favor. Heck identified four possible ways that a § 1983
plaintiff could overcome this bar—namely, a plaintiff
“must prove that the conviction or sentence has been
[1] reversed on direct appeal, [2] expunged by executive
order, [3] declared invalid by a state tribunal authorized to make such determination, or [4] called into
question by a federal court’s issuance of a writ of habeas
corpus.” Heck, 512 U.S. at 486-87 (numbering added).
Respondents were convicted and imprisoned for a
1997 murder in Fairbanks, Alaska. During the pendency of state post-conviction proceedings, an Alaska
trial court vacated Respondents’ convictions based on a
settlement agreement and a stipulation with the state
that “the original jury verdicts and judgments of
conviction were properly and validly entered based on
proof beyond a reasonable doubt[.]” In vacating the
convictions, the Alaska court made no determination
that the convictions were unlawfully obtained or
constitutionally infirm. To the contrary, the Alaska
court expressly stated that its review was limited to
examining whether the state attorney general acted
within his lawful authority to settle civil litigation and
that the court was not opining on the merits of the
underlying convictions or the terms of the settlement.
On review, the issue is whether vacatur of a conviction by settlement qualifies as a favorable termination
under Heck when the vacatur was merely the ministerial recognition of a settlement agreement between
Respondents and the state.

ii
RELATED PROCEEDINGS
Roberts, et al. v. City of Fairbanks, et al., No. 1835938, U.S. Court of Appeals for the Ninth Circuit.
Judgment entered January 22, 2020, reh’g denied
June 26, 2020.
Roberts v. City of Fairbanks, et al., No. 4:17-cv-0034HRH, consolidated with Vent, et al. v. City of Fairbanks,
et al., No. 4:17-cv-0035-HRH, U.S. District Court for
the District of Alaska. Judgment entered Oct. 24,
2018.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

RELATED PROCEEDINGS ...............................

ii

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISIONS INVOLVED ..........

1

STATEMENT OF THE CASE ............................

2

A.

Factual Background .................................

2

B.

Procedural History....................................

4

REASONS FOR GRANTING THE PETITION....

6

I. The Judgment of the Ninth Circuit is a
Significant Departure from Controlling
Supreme Court Precedent ........................

7

II. The Decision Below Opens the
Floodgates to § 1983 Claims Challenging
Convictions that Have Never Been
Invalidated within the Meaning of Heck .

13

III. The Decision Below Adds to a Deepening
Circuit Split...............................................

16

CONCLUSION ....................................................

18

APPENDIX
APPENDIX A: OPINION, Court of Appeals
for the Ninth Circuit (January 22, 2020) ......

1a

APPENDIX B: ORDER, District Court for
the District of Alaska (October 22, 2018) ......

50a

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX C: JUDGMENT, District Court
for the District of Alaska (October 24, 2018)

75a

APPENDIX D: ORDER, Court of Appeals
for the Ninth Circuit (June 26, 2020) ............

77a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Bretz v. Brusett,
899 F.2d 18 (9th Cir. 1990) .......................

10

Campos v. City of Merced,
709 F. Supp. 2d 944 (E.D. Cal. 2010) .......

15

Fuentes v. Berry,
45 Cal. Rptr. 2d 848 (Cal. App. 1995) ......

11

Gilles v. Davis,
427 F.3d 197 (3d Cir. 2005) ......................

17

Heck v. Humphrey,
512 U.S. 477, 114 S. Ct. 2364
(1994) ........................................................passim
Hilfirty v. Shipman,
91 F.3d 573 (3d Cir. 1996) ........................ 10, 11
Laster v. Star Rental, Inc.,
353 S.E.2d 37 (Ga. App. 1987)..................

11

Lynch v. State,
2018 WL 3120840 (Wash. Ct. App. 2018)

15

Manuel v. City of Joliet, Illinois,
137 S. Ct. 911 (2017) .................................

12

McClish v. Nugent,
483 F.3d 1231 (11th Cir. 2007) .................

17

McCubbrey v. Veninga,
39 F.3d 1054 (9th Cir. 1994) .....................

11

McDonough v. Smith,
139 S. Ct. 2149 (2019) ................................

8

Merkle v. Upper Dublin Sch. Dist.,
211 F.3d 782 (3d Cir. 2000) ......................

11

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Murphy v. Lynn,
118 F.3d 938 (2d Cir. 1997) ......................

11

Ohnemus v. Thompson,
594 F. App’x 864 (6th Cir. 2014) ..............

11

Poventud v. City of New York,
750 F.3d 121 (2d Cir. 2014) .....................

11

Roberts v. City of Fairbanks,
947 F.3d 1191 (9th Cir. 2020) ..................passim
Roberts v. City of Fairbanks,
962 F.3d 1165 (9th Cir. 2020) ..................passim
Roberts v. City of Fairbanks,
No. 4:17-CV-0034-HRH, 2018
WL 5259453 (D. Alaska Oct. 22, 2018) .... 1, 3, 4
Roesch v. Otarola,
980 F.2d 850 (2d Cir. 1992) ......................

17

S.E. v. Grant Cty. Bd. of Educ.,
544 F.3d 633 (6th Cir. 2008) .....................

17

Taylor v. Gregg,
36 F.3d 453 (5th Cir. 1994) .......................

17

Uboh v. Reno,
141 F.3d 1000 (11th Cir. 1998) ................. 10, 11
Vasquez Arroyo v. Starks,
589 F.3d 1091 (10th Cir. 2009) .................

17

STATUTES
28 U.S.C. § 1254(l) ........................................

1

28 U.S.C. § 1331 ...........................................

4

vii
TABLE OF AUTHORITIES—Continued
Page(s)
42 U.S.C. § 1983 ..........................................passim
42 U.S.C. § 1985 ...........................................

4

Alaska Stat. § 12.55.078...............................

15

Ariz. Rev. Stat. § 11-361 ..............................

14

Ariz. Rev. Stat. § 13-905 ..............................

14

Ariz. Rev. Stat. § 13-909 ..............................

14

Cal. Penal Code § 1203.4 ..............................

14

Cal. Penal Code § 1203.41 ............................

14

Haw. Rev. Stat. § 712-1209.6 .......................

14

Haw. Rev. Stat. § 853-1 ................................

15

Idaho Code § 19-2604 ...................................

15

Mont. Code. Ann. § 46-16-130 ......................

14

Mont. Code. Ann. § 46-18-1104 ....................

15

Nev. Rev. Stat. § 174.033 .............................

14

Nev. Rev. Stat. § 179.247 .............................

14

Or. Rev. Stat. § 135.891 ...............................

14

Or. Rev. Stat. § 137.225 ...............................

14

Wash. Rev. Code § 9.94A.640(1) ..................

14

Wash. Rev. Code § 9.94A.640(3)(A) .............

14

Wash. Rev. Code Ann. § 10.05.120 ..............

14

viii
TABLE OF AUTHORITIES—Continued
OTHER AUTHORITIES

Page(s)

Adam N. Steinman, The Rise and Fall of
Plausibility Pleading?, 69 Vand. L. Rev.
333 (2016) ..................................................

7

Bonnie Gill, Collateral Consequences of
Pretrial Diversion Programs Under the
Heck Doctrine, 76 Wash. & Lee L. Rev.
1763 (2019) ................................................ 7, 18
Restatement (Second) of Torts (1977) .......... 10, 11

PETITION FOR A WRIT OF CERTIORARI
The City of Fairbanks, Alaska, and Fairbanks Police
Department (FPD) Officers Geier, Ring, Nolan and
Kendrick respectfully petition for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Ninth Circuit (Pet. App. 1a-29a) and dissenting
opinion of Judge Ikuta (Pet. App. 30a-49a), are
reported at Roberts v. City of Fairbanks, 947 F.3d 1191
(9th Cir. 2020). The order of the Ninth Circuit denying
rehearing en banc (Pet. App. 77a-78a) and the dissenting opinion of Judge VanDyke (Pet. App. 79a-98a) are
reported at 962 F.3d 1165 (9th Cir. 2020). The decision
and order of the United States District Court for the
District of Alaska granting Petitioners’ motion to dismiss (Pet. App. 50a-74a) is not reported but is available at 2018 WL 5259453.
JURISDICTION
The Court of Appeals entered judgment on January
22, 2020. Petitioners filed a timely petition for
rehearing en banc, which was denied on June 26, 2020.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
42 U.S.C. § 1983 provides that “Every person who,
under color of any statute, ordinance, regulation, custom, or usage, of any State or Territory or the District
of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the
jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution

2
and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding
for redress, except that in any action brought against
a judicial officer for an act or omission taken in such
officer’s judicial capacity, injunctive relief shall not be
granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.”
STATEMENT OF THE CASE
A. Factual Background
Three different juries convicted Marvin Roberts,
George Frese, Kevin Pease and Eugene Vent (collectively, “Respondents”) of the 1997 murder of John
Hartman in Fairbanks, Alaska. The Alaska Court of
Appeals affirmed each of those convictions on direct
appeal. In 2013, Respondents filed petitions for postconviction relief in the Alaska superior court seeking
to set aside their convictions based on newly discovered evidence—a jailhouse informant claiming that
persons other than Respondents committed the murder. Pet. App. 4a. The superior court allowed Respondents to conduct discovery and afforded them an
opportunity to prove their factual innocence at an
evidentiary hearing. Id. The superior court did not
issue a decision at the end of the hearing but took the
matter under advisement. Id. at 6a. Respondents
decided not to wait for the court’s decision. Instead,
they chose to resolve their post-conviction relief petitions through a settlement agreement with the State
of Alaska. Id. As part of the settlement agreement, the
state stipulated that the superior court could vacate
Respondents’ convictions. Id. The state then dismissed

3
Respondents’ indictments without prejudice, reserving the right to file new charges upon the discovery of
substantial new evidence of guilt. Id. at 53a. In
exchange, Respondents agreed to release all claims
against the State of Alaska, the City of Fairbanks, and
their respective employees. Id. at 8a.
The settlement did not resolve the question of
Respondents’ guilt or innocence. Instead, the parties
agreed they “ha[d] not reached agreement as to
[Respondents’] actual guilt or innocence.” Id. at 6a.
The parties also stipulated that “the original jury
verdicts and judgments of conviction were properly
and validly entered based on proof beyond a
reasonable doubt” (Id. at 7a) and that “[the] Court
need not make findings of innocence” under Alaska’s
post-conviction relief statute. Id. at 56a.
Pursuant to the settlement agreement and stipulations, the superior court vacated Respondents’ convictions and sentences. Id. at 7a-8a. In doing so, the
superior court stated that its role was to “ministerially
sign the orders necessary to [e]ffect the decision of the
attorney general,” and that, having determined the
settlement was procedurally proper, it had “no authority to review or to criticize” the attorney general’s
settlement decision. Id. at 7a. The superior court
reiterated that it had “no power of review or approval”
over the settlement. Id. at 31a. The superior court
therefore did not have occasion to declare that
Respondents’ original convictions or sentences were
invalid, or to make a judicial determination that they
had satisfied the requirements for post-conviction
relief under Alaska law.

4
B. Procedural History
Despite the global release of all claims in the settlement agreement, Respondents subsequently filed a
civil action in the United States District Court for the
District of Alaska, asserting claims against the City of
Fairbanks and its police officers for unconstitutional
conviction and incarceration under 42 U.S.C. § 1983
and § 1985. Id. at 8a. The district court had jurisdiction over Respondents’ federal statutory claims
pursuant to 28 U.S.C. § 1331. The district court
dismissed Respondents’ claims pursuant to Heck v.
Humphrey, concluding that the vacatur of Respondents’ convictions pursuant to a settlement agreement
did not satisfy Heck’s favorable termination rule. Pet.
App. 50a-74a.
A divided panel of the Ninth Circuit court reversed,
holding that Heck did not apply because Respondents’
convictions were no longer outstanding: “[W]here all
convictions underlying § 1983 claims are vacated and
no outstanding criminal judgments remain, Heck does
not bar plaintiffs from seeking relief under § 1983.”
Roberts v. City of Fairbanks, 947 F.3d 1191, 1193 (9th
Cir. 2020) (“Roberts I”). “The absence of a criminal
judgment here renders the Heck bar inapplicable; the
plain language of the decision requires the existence of
a conviction in order for a § 1983 suit to be barred.” Id.
at 1198. In other words, it did not matter to the Ninth
Circuit how or why the convictions were vacated. The
fact of vacatur, in and of itself, rendered Heck’s
favorable termination rule inapplicable.
Judge Ikuta dissented. She recognized that permitting § 1983 wrongful-conviction claims to proceed
based on the fact of vacatur alone “squarely contradicts” Heck’s unambiguous mandate that “plaintiffs
‘must’ show that their convictions were terminated in

5
one of four specific ways[.]” Id. at 1206, 1213–14
(Ikuta, J., dissenting). Judge Ikuta would have held
that the Respondents could not satisfy their burden of
proof under Heck because they “did not have their
prior convictions ‘declared invalid by a state tribunal
authorized to make such determination,’ but instead
reached an agreement with the state to vacate their
convictions.” Id. at 1215.
The City of Fairbanks petitioned for rehearing en
banc, but the Ninth Circuit denied the petition.
Roberts v. City of Fairbanks, 962 F.3d 1165 (9th Cir.
2020) (“Roberts II”). Dissenting from that denial,
Judge VanDyke noted that “[t]he split panel decision
in this case created an additional exception to the Heck
bar that, a far as [he could] tell, is unprecedented—not
only in our circuit, but across the federal courts.” Id.
at 1166 (VanDyke, J., dissenting). He considered the
panel majority’s decision to be “irreconcilable with
Heck’s favorable termination rule.” Id. at 1173. Judge
VanDyke also had a “very serious concern” about the
practical implications of the panel majority’s “novel
exception” to Heck’s favorable termination rule. Id. at
1173, 1175. He explained the decision conflicted with
decisions of other circuits, and could open a “Pandora’s
box” of new § 1983 claims based on convictions that
were vacated without a judicial determination of
invalidity, for example, statutory expungements. Id.
at 1166-67.

6
REASONS FOR GRANTING THE PETITION
The Ninth Circuit held that a § 1983 plaintiff
seeking damages for an allegedly unconstitutional
conviction can avoid the application of Heck’s favorable termination rule merely by proving that their
conviction has been vacated. Under the Ninth Circuit’s
decision, any vacatur will do. This holding “squarely
contradicts” Heck’s unambiguous mandate that “plaintiffs ‘must’ show that their convictions were terminated in one of four specific ways.” Roberts I, 947 F.3d
at 1213-14 (Ikuta, J., dissenting). And it “create[s]
an additional exception to the Heck bar that . . . is
unprecedented . . . across the federal courts.” Roberts
II, 962 F.3d at 1166 (VanDyke, J., dissenting from
denial of rehearing en banc).
By breaking with Heck’s clear and unambiguous
mandate, the Ninth Circuit has created new law with
wide-ranging implications. It “casts into doubt the
Heck bar’s applicability” in “every situation where
a criminal defendant’s conviction is ministerially
vacated without any judicial determination that the
conviction was actually ‘invalid.’” Roberts II, 962 F.3d
at 1166 (VanDyke, J, dissenting). This includes the
many situations in which convictions are automatically vacated pursuant to state law after an offender
has served his sentence. Id. at 1173 (collecting
statutes providing for automatic vacatur of sentences
that were never declared invalid). Under the decision
below, § 1983 plaintiffs can now collaterally attack the
validity of prior convictions using the vehicle of a civil
suit in the first instance, which is precisely what Heck
sought to preclude.
In addition to breaking with controlling precedent
from this Court, the holding below conflicts with
decisions of three other circuits, and it deepens a well-

7
developed circuit split. Like the decision below, the
Sixth, Tenth and Eleventh circuits all hold that Heck
cannot apply in the absence of an “outstanding conviction.” By contrast, the Second, Third, and Fifth circuits
hold that a § 1983 plaintiff must prove “favorable
termination” even if their convictions are not outstanding. This case presents an ideal opportunity for
the Court to resolve this entrenched circuit split.
Heck’s favorable termination rule is one of the most
frequently litigated issues in the federal courts.1 “[I]ts
better-established exceptions already bedevil federal
courts around the country[.]” Roberts II, 962 F.3d at
1166 (VanDyke, J., dissenting). And “confusion over
how to interpret Heck runs rampant.” Bonnie Gill,
Collateral Consequences of Pretrial Diversion Programs Under the Heck Doctrine, 76 Wash. & Lee L.
Rev. 1763, 1768 (2019). The decision below exemplifies
and adds to this confusion, and this case presents an
ideal opportunity for this Court to address important
and frequently recurring issues related to the correct
application of Heck’s favorable termination rule. The
Court should grant certiorari.
I. The Judgment of the Ninth Circuit is a
Significant Departure from Controlling
Supreme Court Precedent
The Ninth Circuit’s decision is a sharp departure
from this Court’s established precedents.

1

See Adam N. Steinman, The Rise and Fall of Plausibility
Pleading?, 69 Vand. L. Rev. 333, 389 (2016) (appending a list of
most frequently cited Supreme Court decisions, with Heck coming
in at number 27). As of the date of printing this petition, Westlaw
reflects that Heck has been cited in 31,206 written decisions,
including 30,795 federal court decisions.

8
In Heck v. Humphrey, this Court held that “in order
to recover damages for allegedly unconstitutional
conviction or imprisonment, . . . a § 1983 plaintiff must
prove that the conviction or sentence has been [1]
reversed on direct appeal, [2] expunged by executive
order, [3] declared invalid by a state tribunal authorized to make such determination, or [4] called into
question by a federal court’s issuance of a writ of
habeas corpus.” Heck, 512 U.S. at 487-87 (numbering
added). The Court made clear that this list is exclusive: “A claim for damages bearing that relationship
to a conviction or sentence that has not been so
invalidated is not cognizable under § 1983.” Id. at 487
(emphasis in original). And it has recently affirmed
that “invalidation” of a conviction has a particularized
meaning for purposes of § 1983 claims, and that
particularized meaning is defined by Heck: “Only once
the criminal proceeding has ended in the defendant’s
favor, or a resulting conviction has been invalidated
within the meaning of Heck, will the statute of
limitations begin to run.” McDonough v. Smith, 139
S. Ct. 2149, 2158 (2019) (emphasis added). The manner
in which a conviction is vacated is therefore critical to
Heck’s favorable termination analysis. Not just any
vacatur will suffice. Instead, a § 1983 plaintiff “must
prove” that their prior conviction ended in one of the
ways that Heck recognized as a favorable termination.
The decision below ignores this mandate, holding
that Heck does not apply so long as the § 1983
plaintiff’s prior conviction has already been vacated,
regardless of the manner of or reasons for the vacatur:
“[W]here all convictions underlying § 1983 claims
are vacated and no outstanding criminal judgments
remain, Heck does not bar plaintiffs from seeking
relief under § 1983.” Roberts I, 947 F.3d at 1193.
According to the Ninth Circuit, the “absence of a

9
criminal judgment . . . renders the Heck bar inapplicable[.]” Id. at 1198. But this analysis is “irreconcilable
with Heck’s favorable termination rule.” Roberts II,
962 F.3d at 1173 (VanDyke, J., dissenting). Succinctly
stated in Judge Ikuta’s dissenting opinion:
Heck precludes plaintiffs from bringing a
§ 1983 action unless they have shown that
their conviction was invalidated by one of the
four specific means. 512 U.S. at 486–87, 114
S.Ct. 2364. The majority, by contrast, allows
plaintiffs to bring a § 1983 action if their
conviction was discharged or satisfied by any
means.
Roberts I, 947 F.3d at 1212–13 (Ikuta, J., dissenting).
Because the “conclusion that a plaintiff can bring a
§ 1983 malicious prosecution action so long as the
underlying criminal judgment was discharged by any
means is contrary to Heck, the majority’s interpretation must be rejected.” Id. at 1213.
The decision below is also wrong because it
“divorce[s] Heck’s favorable termination requirement
from its common law roots.” Roberts II, 962 F.3d at
1170 (VanDyke, J., dissenting). Heck’s “favorable termination” rule derives from the common law tort of
malicious prosecution. At common law, “[o]ne element
that must be alleged and proved in a malicious
prosecution action is termination of the prior criminal
proceeding in favor of the accused.” Heck, 512 U.S. at
484. This requirement “avoids parallel litigation over
the issues of probable cause and guilt . . . and it
precludes the possibility of the claimant [sic] succeeding in the tort action after having been convicted in the
underlying criminal prosecution, in contravention of a
strong judicial policy against the creation of two

10
conflicting resolutions arising out of the same or
identical transaction.” Id. (internal citations omitted).
In Heck, this Court expressly incorporated these
common law principles into its § 1983 jurisprudence,
holding that “the hoary principle that civil tort actions
are not appropriate vehicles for challenging the
validity of outstanding criminal judgments applies to
§ 1983 damages actions that necessarily require the
plaintiff to prove the unlawfulness of his conviction or
confinement, just as it has always applied to actions
for malicious prosecution.” Heck, 512 U.S. at 486
(internal citations omitted). Thus, “[j]ust as a cause of
action for malicious prosecution does not accrue until
the criminal proceedings have terminated in the
plaintiff’s favor, so also a § 1983 cause of action for
damages attributable to an unconstitutional conviction or sentence does not accrue until the conviction or
sentence has been invalidated.” Id. at 489–90 (internal
citations omitted). The common law favorable termination rule therefore animates and informs the
analysis of Heck’s favorable termination requirement.
Under the common law favorable termination rule,
it is the manner in which a prosecution ends, not
merely the fact that it ended, that matters. It is well
settled, for example, that “[p]roceedings are ‘terminated in favor of the accused’ only when their final
disposition is such as to indicate the accused is not
guilty.”2 Thus, “termination of criminal proceedings in
2

Bretz v. Brusett, 899 F.2d 18 (9th Cir. 1990) (unpub.) (citing
Restatement (Second) of Torts § 660, Comments a & b (1977)); see
also Uboh v. Reno, 141 F.3d 1000, 1004–05 (11th Cir. 1998)
(“Courts have further reasoned that ‘only terminations that indicate that the accused is innocent ought to be considered favorable.’”) (quoting Hilfirty v. Shipman, 91 F.3d 573, 580 (3d Cir.
1996)); Restatement (Second) of Torts § 660 cmt. a (“Proceedings

11
favor of the accused other than by acquittal is not a
sufficient termination to meet the requirements of a
cause of action for malicious prosecution if . . . the
charge is withdrawn or the prosecution abandoned
pursuant to an agreement of compromise with the
accused . . . . ”3 This principle is widely recognized in
federal and state courts around the country.4
are ‘terminated in favor of the accused’ . . . only when their final
disposition is such as to indicate the innocence of the accused.”).
3

Hilfirty, 91 F.3d at 580 (quoting Restatement (Second) of
Torts § 660), disapproved of on other grounds by Merkle v. Upper
Dublin Sch. Dist., 211 F.3d 782 (3d Cir. 2000).
4

See McCubbrey v. Veninga, 39 F.3d 1054, 1055 (9th Cir.
1994) (“The district court correctly determined that, ‘generally, a
dismissal resulting from a settlement does not constitute a
favorable determination . . . . ’”); Ohnemus v. Thompson, 594 F.
App’x 864, 867 (6th Cir. 2014) (“In order for a termination of
proceedings to be favorable to the accused, the dismissal must be
one-sided and not the result of any settlement or compromise.”);
Poventud v. City of New York, 750 F.3d 121, 131 (2d Cir. 2014)
(“[I]t is hornbook law that where charges are withdrawn or the
prosecution is terminated by reason of a compromise into which
the accused has entered voluntarily, there is no sufficient termination in favor of the accused.”) (internal quotations omitted);
Murphy v. Lynn, 118 F.3d 938, 949 (2d Cir. 1997) (“The prevailing
view is that if the abandonment [of criminal claims by the
prosecution] was the result of a compromise to which the accused
agreed . . . it is not a termination in favor of the accused for
purposes of a malicious prosecution claim.”); Uboh v. Reno, 141
F.3d 1000, 1004–05 (11th Cir. 1998) (“[C]ourts have found that
withdrawal of criminal charges pursuant to a compromise or
agreement does not constitute favorable termination and, thus,
cannot support a claim for malicious prosecution.”) (internal
citations omitted); Laster v. Star Rental, Inc., 353 S.E.2d 37, 38
(Ga. App. 1987) (“[W]here the termination of the prosecution has
been brought about by compromise and agreement of the parties,
an action for malicious prosecution cannot be maintained.”);
Fuentes v. Berry, 45 Cal. Rptr. 2d 848, 852–53 (Cal. App. 1995)
(“[A] dismissal resulting from a settlement generally does not

12
In concluding that any vacatur is sufficient to render
Heck inapplicable, including the vacatur of Respondents’ convictions by settlement agreement, the Ninth
Circuit not only departed from the clear mandate of
Heck, but it also broke with the common law principles
from which Heck derived. As Judge Ikuta put it,
“vacatur by settlement is not—and never was—
recognized as a favorable termination at common law,
so the majority’s attempt to recognize it as a fifth
means of favorable termination under Heck squarely
contradicts Heck’s reliance on the ‘common law of
torts.’” Roberts I, 947 F.3d at 1214–15 (Ikuta, J.,
dissenting).
By declaring Heck inapplicable to any § 1983
plaintiff whose conviction has been vacated (irrespective of the means of or reasons for the vacatur), the
decision below guts Heck’s core holding and ignores its
common law pedigree. The Ninth Circuit justified this
departure from Heck’s common law underpinnings
by insisting that Heck’s favorable termination requirement is not coextensive with the common law favorable termination rule. Roberts I, 947 F.3d at 1202–03
n.13. And that may very well be true. But this Court
has held Heck out as an example of an occasion when
the “review of common law [led] a court to adopt
wholesale the rules that would apply in a suit
involving the most analogous tort.” Manuel v. City
of Joliet, Illinois, 137 S. Ct. 911, 920–21 (2017)
(emphasis added). So even the Ninth Circuit’s effort to
distance Heck from the common law on which it is
based is inconsistent with this Court’s jurisprudence.
constitute a favorable termination. ‘In such a case the dismissal
reflects ambiguously on the merits of the action as it results from
the joint action of the parties, thus leaving open the question of
defendant’s guilt or innocence.’”).

13
In the end, the decision below marks a decided
departure from the law that this Court laid down in
Heck. Intervention is necessary to ensure the faithful
application of controlling precedent, particularly given
the importance of this issue.
II. The Decision Below Opens the Floodgates
to § 1983 Claims Challenging Convictions
that Have Never Been Invalidated within
the Meaning of Heck
The Alaska superior court in this case “ministerially” vacated Respondents’ convictions based on a
settlement agreement and a stipulation that “the
original jury verdicts and judgments of conviction
were properly and validly entered based on proof
beyond a reasonable doubt[.]” There has never been a
judicial determination that Respondents’ convictions
were unlawfully obtained or constitutionally infirm. In
other words, Respondents’ convictions were never
“declared invalid by a state tribunal authorized to
make such determination,” as required by Heck. See
Roberts I, 947 F.3d at 1210 (Ikuta, J., dissenting). By
holding that the ministerial vacatur of Respondents’
convictions is sufficient to bypass Heck, without any
judicial determination that the convictions were
invalid, the decision below opens the floodgates to a
whole new class of § 1983 claims for incarcerationrelated damages.
Many states have expungement statutes under
which convictions may be “vacated” based solely upon
the passage of time, the completion of probation, or the
convict’s subsequent good behavior, with no showing
that the underlying conviction was unlawful or
constitutionally infirm. Washington law provides a
good example. In Washington State, if a convict meets
the statutory test for expungement, the state court is

14
directed to “clear the record of conviction by . . . setting
aside the verdict of guilty . . . and dismissing the
information or indictment against the offender.” RCW
9.94A.640(1). In such cases, the law treats the offender
as though he or she had never been convicted: “For all
purposes, including responding to questions on employment applications, an offender whose conviction has
been vacated may state that the offender has never
been convicted of that crime.” RCW 9.94A.640(3)(A).
Washington is not alone. Many states have similar
expungement statues.5
5

See, e.g., Or. Rev. Stat. § 137.225 (“[A]t any time after the
lapse of three years from the date of pronouncement of judgment,
any defendant who has fully complied with and performed the
sentence of the court . . . may apply to the court where the
conviction was entered for entry of an order setting aside the
conviction.”); Cal. Penal Code § 1203.4 (requiring “vacation” of
certain convictions after successful completion of probation); id.at
§ 1203.41 (providing for vacation of guilty pleas and verdicts
without a finding of the conviction’s invalidity); Ariz. Rev. Stat.
§ 13-909 (providing for vacation of convictions); id. at § 13-905
(“[E]very person convicted of a criminal offense, on fulfillment of
the conditions of probation or sentence and discharge by the
court, may apply to the court to have the judgment of guilt set
aside.”); Nev. Rev. Stat. § 179.247 (providing certain nonviolent
offenders with the option of vacating their judgment and sealing
their records of conviction); Haw. Rev. Stat. § 712-1209.6 (giving
convicted prostitutes the ability to vacate their convictions);
Wash. Rev. Code Ann. § 10.05.120 (instructing courts to dismiss
charges after the defendant successfully completes a deferred
prosecution program); Mont. Code. Ann. § 46-16-130 (requiring
automatic dismissal of prosecution upon compliance with the
terms of a pre-trial diversion program); Nev. Rev. Stat. § 174.033
(mandating the dismissal of charges following a defendant’s
completion of “the terms and conditions of a preprosecution
diversion program”); Or. Rev. Stat. § 135.891 (confirming that
criminal charges will be dismissed with prejudice when a
defendant fulfills the requirements of a diversion agreement);
Ariz. Rev. Stat. § 11-361 (“[T]he county attorney of a participating

15
Until now, courts have had little difficulty concluding that such vacaturs did not relieve plaintiffs of the
Heck bar because their convictions were not “declared
invalid” by a state tribunal. See, e.g., Campos v. City
of Merced, 709 F. Supp. 2d 944, 961 (E.D. Cal. 2010)
(vacatur of conviction under California Penal Code
§ 1203.4 does not lift the Heck bar); Lynch v. State,
2018 WL 3120840, at *4 (Wash. Ct. App. 2018)
(vacatur of conviction under Washington expungement statute does not lift the Heck bar because, under
Heck, “a § 1983 action becomes cognizable only when
the underlying conviction or sentence is determined to
have been invalidated, i.e., deemed unconstitutional or
unlawful.”).
After the decision below, however, there is no
principled reason to hold that Heck bars a plaintiff
whose conviction was vacated in such a manner from
collaterally attacking their still-valid convictions
through a § 1983 civil suit, which is precisely the
result Heck sought to avoid. See Roberts II, 962 F.3d
at 1175 (“Even though one purpose of the favorablecounty may divert or defer, before a guilty plea or a trial, the
prosecution of a person who is accused of committing a crime . . .
.”); Haw. Rev. Stat. § 853-1 (deferring further proceedings when
a defendant enters a guilty or nolo contendere plea to allow the
defendant to participate in a deferred prosecution program that
requires dismissal of the criminal charges upon completion of the
program); Alaska Stat. § 12.55.078 (permitting deferred
adjudication wherein a defendant serves a term of probation in
exchange for the dismissal of the criminal proceedings); Mont.
Code. Ann. § 46-18-1104 (describing the conditions for
expungement of misdemeanors); Idaho Code § 19-2604
(authorizing courts to terminate a sentence, set aside a guilty
plea or conviction, and dismiss the case if the court determines
“there is no longer cause for continuing the period of [defendant’s]
probation”).

16
termination rule is to avoid the risk that a criminal
conviction could be deemed valid in the criminal
context and invalid in the civil context, the Roberts
exception now requires this Court to engage in judicial
gymnastics to determine whether a § 1983 plaintiff
may attack a conviction that has not actually been
declared invalid by an authorized state tribunal.”)
(VanDyke, J., dissenting).
By holding that the application of Heck’s favorable
termination rule turns on the existence, or not, of an
“outstanding conviction,” the decision below throws
open the door to collateral attacks on convictions and
sentences that have never been invalidated in the
criminal courts.
III. The Decision Below Adds to a Deepening
Circuit Split
The decision below also adds to a deepening circuit
split regarding the application of Heck to plaintiffs
who have no outstanding conviction even though the
criminal proceedings against them did not terminate
in their favor. In this case, the Ninth Circuit concluded
that the absence of an outstanding conviction means
that Heck’s favorable termination rule does not apply.
As Judge VanDyke recognized dissenting from the
denial of en banc review, this conclusion puts the
Ninth Circuit in conflict with the Second and Third
Circuits, both of which have held that a § 1983 plaintiff
must prove favorable termination, even in the absence
of an outstanding conviction. Roberts II, 962 F.3d at
1174-75. The Second and Third Circuits reached this
conclusion in the context of pretrial diversion statutes,
under which a criminal defendant avoids a “conviction” by agreeing to participate in a rehabilitative or
other program. In these circuits, a criminal defendant
who has voluntarily entered a pretrial diversion

17
program may not later contest the criminal proceedings through a § 1983 suit, despite the absence of a
conviction, because participation in a pretrial diversion program is not a favorable termination. See
Roesch v. Otarola, 980 F.2d 850, 853 (2d Cir. 1992)
(“[W]e hold [that a] trial rehabilitation program is not
a termination in favor of the accused for purposes of a
civil rights suit.”); see Gilles v. Davis, 427 F.3d 197,
211 (3d Cir. 2005) (“[W]e hold the [pretrial diversion]
program is not a favorable termination under Heck.”).
The Fifth Circuit is in accord. See Taylor v. Gregg, 36
F.3d 453, 455-56 (5th Cir. 1994) (holding that pretrial
diversion programs are not favorable terminations).
The Sixth, Tenth, and Eleventh Circuits, however,
have held that Heck does not bar a criminal defendant
who successfully completes a pretrial diversion program from bringing a subsequent civil rights suit,
specifically because there is no “outstanding conviction” in such cases. See Vasquez Arroyo v. Starks,
589 F.3d 1091, 1096 (10th Cir. 2009) (“[W]e have
determined that the Kansas pretrial diversion agreements are not outstanding convictions and therefore
these § 1983 claims impugning their validity are not
barred by Heck.”); McClish v. Nugent, 483 F.3d 1231,
1252 (11th Cir. 2007) (“[We] reverse the district court’s
grant of summary judgment . . . on the grounds that
Holmberg’s § 1983 claim was Heck-barred.”); S.E. v.
Grant Cty. Bd. of Educ., 544 F.3d 633, 639 (6th Cir.
2008) (“We hold that Heck is inapplicable, and poses
no bar to plaintiffs’ claims.”).
Accordingly, there is a well-developed circuit split
regarding the application of Heck to plaintiffs who
cannot prove favorable termination, but whose convictions are not “outstanding” due to a variety of statecourt procedural devices employed to resolve criminal

18
proceedings. See Bonnie Gill, Collateral Consequences
of Pretrial Diversion Programs Under the Heck
Doctrine, 76 Wash. & Lee L. Rev. 1763, 1768 (2019)
(examining circuit split). This case presents an ideal
vehicle to resolve this split of circuit authority and
bring clarity to an important area of law that has sown
confusion within the federal courts.
CONCLUSION
The decision below was deeply flawed and flatly
inconsistent with controlling decisions from this
Court. It adds to the acknowledged confusion over
the correct application of Heck and deepens a
well-developed circuit split about the significance of
an outstanding conviction for purposes of Heck. The
Court should grant certiorari to correct the decision
below and provide the lower courts with much needed
guidance on the application of Heck to plaintiffs whose
prior convictions are no longer outstanding.
Respectfully submitted,
JOSEPH W. EVANS
LAW OFFICES OF
JOSEPH W. EVANS
P.O. Box 519
Bremerton, WA 98310
(360) 782-2418
joe@jwevanslaw.com

MATTHEW SINGER
Counsel of Record
SCHWABE WILLIAMSON &
WYATT, P.C.
420 L Street, Suite 400
Anchorage, AK 99501
(907) 339-7125
msinger@schwabe.com

Counsel for Petitioners
November 20, 2020

APPENDIX

1a
APPENDIX A
947 F.3d 1191
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
————
No. 18-35938
————
MARVIN ROBERTS; EUGENE VENT;
KEVIN PEASE; GEORGE FRESE,
Plaintiffs-Appellants,
v.
CITY OF FAIRBANKS; JAMES GEIER;
CLIFFORD AARON RING; CHRIS NOLAN;
DAVE KENDRICK,
Defendants-Appellees.
————
Argued and Submitted August 9, 2019
Fairbanks, Alaska
Filed January 22, 2020
————
Appeal from the United States District Court
for the District of Alaska,
H. Russel Holland, District Judge, Presiding,
D.C. Nos. 4:17-cv-00034-HRH, 4:17-cv-00035-HRH
————

2a
Attorneys and Law Firms
Anna Benvenutti Hoffmann (argued), Nick Brustin,
Richard Sawyer, and Mary McCarthy, Neufeld Scheck
& Brustin LLP, New York, New York; Mike Kramer
and Reilly Cosgrove, Kramer and Associates, Fairbanks,
Alaska; for Plaintiffs-Appellants Marvin Roberts and
Eugene Vent.
David Whedbee, Jeffrey Taren, Tiffany Cartwright,
and Sam Kramer, MacDonald Hoague & Bayless,
Seattle, Washington; Thomas R. Wickware, Fairbanks,
Alaska; for Plaintiffs-Appellants Kevin Pease and
George Frese.
Matthew Singer (argued) and Peter A. Scully, Holland
& Knight LLP, Anchorage, Alaska, for DefendantAppellee City of Fairbanks.
Joseph W. Evans (argued), Law Offices of Joseph W.
Evans, Bremerton, Washington, for DefendantsAppellees James Geier, Clifford Aaron Ring, Chris
Nolan, and Dave Kendrick.
Samuel Harbourt, Orrick Herrington & Sutcliffe LLP,
San Francisco, California; Kelsi Brown Corkran,
Orrick Herrington & Sutcliffe LLP, Washington, D.C.;
for Amici Curiae Scholars.
Steven S. Hansen, CSG Inc., Fairbanks, Alaska, for
Amicus Curiae Tanana Chiefs Conference.
David B. Owens, Lillian Hahn, Benjamin Harris, and
Emily Sullivan, The Exoneration Project, Chicago,
Illinois, for Amici Curiae The Innocence Network,
American Civil Liberties Union, and ACLU of Alaska
Foundation.

3a
OPINION
Before: Richard C. Tallman, Sandra S. Ikuta, and N.
Randy Smith, Circuit Judges.
Dissent by Judge Ikuta
TALLMAN, Circuit Judge:
This is an appeal from an order dismissing claims
brought under 42 U.S.C. § 1983 and § 1985 on the
ground that the claims were barred by Heck v.
Humphrey, 512 U.S. 477, 114 S.Ct. 2364, 129 L.Ed.2d
383 (1994). The primary question before us is whether
§ 1983 plaintiffs may recover damages if the convictions underlying their claims were vacated pursuant
to a settlement agreement. The answer depends on
whether such a vacatur serves to invalidate the
convictions and thus renders the related § 1983
claims actionable notwithstanding Heck. We conclude
that where all convictions underlying § 1983 claims
are vacated and no outstanding criminal judgments
remain, Heck does not bar plaintiffs from seeking
relief under § 1983. We have jurisdiction under 28
U.S.C. § 1291, and we reverse and remand for further
proceedings.
I
The following facts are alleged in the operative
pleading or are subject to judicial notice:
On October 11, 1997, several men beat and kicked
to death 15-year-old John Hartman on the streets of
Fairbanks, Alaska. Plaintiffs Marvin Roberts, George
Frese, Kevin Pease, and Eugene Vent (collectively
“Plaintiffs”) were arrested by the Fairbanks Police
Department, tried, and convicted of the murder and
received prison sentences ranging from 30 to 77 years.
The men—three Alaska Natives and one Native
American—were between the ages of 17 and 20.

4a
Several years after the convictions, an individual
named William Holmes confessed to his involvement
in the murder and named Jason Wallace and three
other men as the actual perpetrators of the crime.
Partly based on this confession, Plaintiffs filed postconviction relief (“PCR”) petitions in Alaska Superior
Court in September 2013. The court ruled that the
petitions stated a prima facie case of actual innocence,
allowing Plaintiffs to proceed with discovery, which
lasted two years.
On May 4, 2015, Jason Gazewood, counsel for Jason
Wallace, wrote a letter to the post-conviction prosecutors,1 expressing his concerns with the likely outcome
of a PCR hearing. Gazewood, a former Fairbanks
prosecutor, wrote that their convictions were likely to
be vacated and that a retrial would be “virtually
unwinnable.” He noted that the lead investigator of
the murder, Detective Clifford Aaron Ring, had
“edit[ed] his recordings in such a way as to not record
exculpatory information while using coercive techniques to obtain confessions,” and that the Fairbanks
Police Department (“FPD”) was well aware of Detective Ring’s “use of deceptive interviewing techniques.”
For these reasons, among others, Gazewood warned
the prosecutors that Plaintiffs were likely to seek—
and win—tens of millions of dollars in a civil-rights
1

Gazewood’s letter was addressed to Assistant Attorney General Adrienne Bachmann who had allegedly suppressed a memorandum documenting Holmes’ 2011 confession to the Hartman
murder from Plaintiffs and their counsel. Because we review de
novo the district court’s grant of a motion to dismiss under Rule
12(b)(6), “accepting all factual allegations in the complaint as
true and construing them in the light most favorable to the
nonmoving party,” Fields v. Twitter, Inc., 881 F.3d 739, 743 (9th
Cir. 2018), we do not address whether Plaintiffs’ allegations can
be proven.

5a
suit against those involved in procuring their wrongful
convictions.
After discovery, the state court held a five-week
evidentiary hearing from October through November
of 2015. The following testimony was adduced:


William Holmes testified that he, Jason
Wallace, and three other men had murdered Hartman;



Eleven witnesses corroborated Holmes’
account;



Four witnesses testified that Wallace had
confessed to killing Hartman and provided
consistent, interlocking accounts corroborating that fact;



Arlo Olson, the sole witness who had
identified Plaintiffs as assailants in an
unrelated attack on Frank Dayton the
night of the Hartman murder, testified
that FPD officers coerced him into giving
a false statement;



Frank Dayton, the individual who had
also been assaulted on the night of the
murder, testified that his assailants had
not been in Roberts’ car, as had been
asserted by the prosecution;



An Alaska State Trooper testified that an
investigation corroborated key elements of
Holmes’ confession and failed to find any
evidence of Plaintiffs’ guilt;



Alibi witnesses provided accounts of the
activities and whereabouts of Plaintiffs on
the night of the murder, establishing that
Plaintiffs were never together that night

6a
and could not have murdered Hartman or
assaulted Dayton; and


Forensic experts testified that the prosecution improperly advanced “evidence”
that Frese’s boot print matched the injuries on Hartman’s face, stating that there
was no scientifically reliable way to make
this determination.
At the end of the evidentiary hearing, the judge told
the parties that he would not render a decision for
another six to eight months. Plaintiffs allege that
prosecutors publicly stated that they would appeal any
decision favorable to Plaintiffs all the way to the
Alaska Supreme Court, thereby extending the men’s
already lengthy incarceration for an indefinite period.
Several weeks after the hearing and just before
Christmas 2015, the prosecutors offered Plaintiffs a
deal: the prosecution would consent to vacating the
convictions and dismissing the charges, but only if all
four plaintiffs agreed to release the State of Alaska
and the City of Fairbanks (and their employees) from
any liability related to the convictions.2 Plaintiffs
agreed and entered into a settlement agreement with
the State of Alaska and the City of Fairbanks (the
“Settlement Agreement”). The Settlement Agreement
was filed with the Alaska Superior Court, and the
parties jointly stipulated that the court would be
asked to vacate Plaintiffs’ convictions. The Settlement
Agreement also provided that “[t]he parties have not
reached agreement as to [Plaintiffs’] actual guilt or
innocence.”
2

Roberts had already been released from prison and was on
supervised parole, but the prosecution refused to release any of
the other three plaintiffs from prison unless Roberts agreed to the
same arrangement.

7a
Nonetheless, Plaintiffs all signed the Settlement
Agreement, which included the following key stipulations:


The petitioners stipulate and agree that
the original jury verdicts and judgments
of conviction were properly and validly
entered based on proof beyond a reasonable doubt.



The parties stipulate and agree that there
is sufficient new evidence of material facts
that a new trial could be ordered under AS
12.72.010(4).3



The parties stipulate and agree that this
Court may immediately enter Orders
vacating the Judgments of Conviction . . .
and awarding each Petitioner the relief of
a new trial for each of the charges for
which Petitioners were convicted.

On December 17, 2015, after a judicially supervised
mediation, the Alaska Superior Court convened a
settlement hearing with all parties present and heard
from representatives of the victims and counsel for
all parties. The court explained that its role was to
“ministerially sign the orders necessary to [e]ffect the
decision of the attorney general,” and that, having
determined that the settlement was procedurally
proper, it “had no authority to . . . review or to criticize”
the attorney general’s decision. At the conclusion of
the hearing, the court vacated Plaintiffs’ convictions,
3

Under Alaska Statute § 12.72.010(4), a person convicted of a
crime may institute a PCR proceeding if the person claims “that
there exists evidence of material facts, not previously presented
and heard by the court, that requires vacation of the conviction
or sentence in the interest of justice.”

8a
the prosecutors dismissed all indictments, and Vent,
Frese, and Pease were released from prison. The parties inform us that no further prosecution of these
men has ensued and no new trial was ever ordered
following the 2015 hearing.
Despite a global release of all claims by Plaintiffs
contained in the Settlement Agreement, this civilrights lawsuit was later commenced. On May 14, 2018,
Plaintiffs filed a Second Amended and Consolidated
Complaint and Jury Demand seeking relief under
§ 1983 against the City of Fairbanks and the four
named FPD officers: James Geier, Clifford Aaron Ring,
Chris Nolan, and Dave Kendrick (collectively “Defendants”). Vent and Frese alleged Fifth Amendment violations, and all four plaintiffs asserted the following
causes of action:
1. 42 U.S.C. § 1983 deprivation of liberty;
2. § 1983 malicious prosecution;
3. § 1983 Brady violations;
4. § 1983 supervisor liability;
5. § 1983 civil rights conspiracy;
6. § 1985(3) conspiracy;
7. § 1983 Monell claims against the City of
Fairbanks;
8. § 1983 First Amendment right of access;
9. Spoliation of evidence;
10. Negligence; and
11. Intentional or reckless infliction of emotional distress. Plaintiffs requested a declaratory judgment that the Settlement
Agreement is unenforceable, an award of

9a
compensatory and punitive damages, and
attorney’s fees.
On June 4, 2018, Defendants moved to dismiss
Plaintiffs’ complaint for failure to state a claim upon
which relief can be granted under Federal Rule of Civil
Procedure 12(b)(6), or alternatively, for failure to join
the State of Alaska as an indispensable party under
Rule 12(b)(7).
The district court entered a final judgment and
order dismissing Plaintiffs’ negligence and negligent
infliction of emotional distress4 claims with prejudice,5
and dismissing the other ten claims without prejudice,
under Rule 12(b)(6).6
Roberts v. City of Fairbanks, No. 4:17-CV-0034-HRH,
2018 WL 5259453, at *10 (D. Alaska Oct. 22, 2018).
But the court denied leave to amend “as amendment
would be futile at th[at] time.” Id. The district court
dismissed the claims as barred by Heck v. Humphrey,
holding that vacatur of convictions pursuant to a
settlement agreement was insufficient to render the
convictions invalid in specific reliance on the parties’
stipulation that “the original jury verdicts and judgments of conviction were properly and validly entered
based on proof beyond a reasonable doubt.” Id. at *8
(internal quotation marks omitted). As the court
explained, “[a]ll the Superior Court did was vacate
4

The court likely intended to refer to the intentional or
reckless infliction of emotional distress claim, as Plaintiffs had
not asserted a negligent infliction of emotional distress claim. The
district court can clarify this matter on remand.
5

The court noted that Plaintiffs did not oppose dismissal of
these two claims.
6

The court did not consider Defendants’ alternative Rule 12(b)(7)
argument. Defendants press that issue on appeal before us.

10a
plaintiffs’ convictions pursuant to the settlement
agreements and the stipulation. The Superior Court
did not declare their convictions invalid.” Id. Plaintiffs
timely appealed.
II
As previously noted, see supra n.1, we accept
Plaintiffs’ factual allegations as true and review de
novo the Rule 12(b)(6) dismissal.
III
A
We agree with the district court that our analysis is
guided by Heck v. Humphrey, the seminal case discussing whether a plaintiff may challenge the constitutionality of a conviction through a § 1983 suit for
damages. 512 U.S. at 478, 114 S.Ct. 2364. Petitioner
Roy Heck was serving a 15-year sentence for voluntary
manslaughter in the killing of his wife. Id. While his
appeal from the conviction was pending in state court,
Heck filed § 1983 claims in federal district court
alleging that defendants, including county prosecutors
and a state police investigator, had engaged in “unlawful, unreasonable, and arbitrary investigation,”
“knowingly destroyed” exculpatory evidence, and
caused an “unlawful voice identification procedure”
to be used at his trial, while acting under color of state
law. Id. at 479, 114 S.Ct. 2364. Heck sought compensatory and punitive damages but did not seek injunctive
relief or release from custody. Id.
The district court dismissed Heck’s suit because
it implicated the legality of his conviction. Id. Heck
appealed this ruling to the Seventh Circuit Court of
Appeals. Id. While the federal appeal was pending, the
state supreme court affirmed his conviction and

11a
sentence. Id. The Seventh Circuit upheld the district
court’s dismissal of the claims, holding that
[i]f regardless of the relief sought, the
plaintiff [in a federal civil-rights action] is
challenging the legality of his conviction, so
that if he won his case the state would be
obliged to release him even if he hadn’t
sought that relief, the suit is classified as
an application for habeas corpus and the
plaintiff must exhaust his state remedies, on
pain of dismissal if he fails to do so.
Id. at 479–80, 114 S.Ct. 2364 (footnote and citations
omitted).
Upon review, the Supreme Court disagreed with the
circuit court’s conclusion regarding exhaustion and
stated that “§ 1983 contains no exhaustion requirement beyond what Congress has provided.” Id. at 483,
114 S.Ct. 2364. Instead, the Court stated, the question
before it was “whether the claim is cognizable under
§ 1983 at all.” Id. Recognizing that § 1983 “creates a
species of tort liability,” id. (quoting Memphis Cmty.
Sch. Dist. v. Stachura, 477 U.S. 299, 305, 106 S.Ct.
2537, 91 L.Ed.2d 249 (1986)), the Court began its
analysis by looking at the common law of torts,
specifically, the cause of action for malicious prosecution, which it described as the most analogous to
Heck’s claims, id. at 483–84, 114 S.Ct. 2364. The Court
emphasized that the favorable-termination7 element
of malicious prosecution
7

We have said that the favorable-termination rule in the context of malicious prosecution refers to the termination of proceedings “in such a manner as to indicate . . . innocence.” Awabdy
v. City of Adelanto, 368 F.3d 1062, 1068 (9th Cir. 2004). As
discussed below, we leave to the district court the question

12a
avoids parallel litigation over the issues of
probable cause and guilt . . . and it precludes
the possibility of the claimant [sic] succeeding
in the tort action after having been convicted
in the underlying criminal prosecution, in
contravention of a strong judicial policy
against the creation of two conflicting resolutions arising out of the same or identical
transaction.
Id. at 484, 114 S.Ct. 2364 (alteration in original)
(quoting 8 S. Speiser, C. Krause & A. Gans, American
Law of Torts § 28:5, at 24 (1991)).
The Heck Court noted its similar longstanding concern “for finality and consistency” and general
disinclination to “expand opportunities for collateral
attack.” Id. at 485–86, 114 S.Ct. 2364. Based on this
laudatory concern and “the hoary principle that civil
tort actions are not appropriate vehicles for challenging the validity of outstanding criminal judgments,”
id. at 486, 114 S.Ct. 2364, the Court adopted a version
of the common law’s favorable-termination rule for
§ 1983 damages claims that “call into question the
lawfulness of conviction or confinement,” id. at 483,
114 S.Ct. 2364. The Court articulated four ways
in which a § 1983 plaintiff could satisfy this requirement:
[T]o recover damages for allegedly unconstitutional conviction or imprisonment, or for
other harm caused by actions whose unlawfulness would render a conviction or sentence
invalid, a § 1983 plaintiff must prove that the
conviction or sentence has been [1] reversed
whether Plaintiffs have alleged sufficient facts to state a claim
for malicious prosecution.

13a
on direct appeal, [2] expunged by executive
order, [3] declared invalid by a state tribunal
authorized to make such determination, or
[4] called into question by a federal court’s
issuance of a writ of habeas corpus.
Id. at 486–87, 114 S.Ct. 2364 (footnote omitted).8 Here,
we need only consider whether Plaintiffs’ convictions
were “declared invalid by a state tribunal authorized
to make such determination,” id. at 487, 114 S.Ct.
2364, when the Alaska Superior Court vacated their
convictions based on the Settlement Agreement.
The Heck Court was explicit: “If the district court
determines that the plaintiff’s action, even if successful, will not demonstrate the invalidity of any outstanding criminal judgment against the plaintiff, the
action should be allowed to proceed, in the absence of
some other bar to the suit.” Id. (footnote omitted).
Because all convictions here were vacated and underlying indictments ordered dismissed, there remains
no outstanding criminal judgment nor any charges
pending against Plaintiffs. The absence of a criminal
judgment here renders the Heck bar inapplicable;
the plain language of the decision requires the existence of a conviction in order for a § 1983 suit to be
barred. See id.
Defendants argue, and the dissent agrees, that even
though the convictions were vacated, they are still
“valid” and so Plaintiffs’ civil-rights claims are not
cognizable. But the plain meaning of Heck and our
precedents counsel otherwise. According to Black’s
Law Dictionary, the definition of “vacate” is “to
8

We have held that Heck applies equally to claims brought
under § 1985. See McQuillion v. Schwarzenegger, 369 F.3d 1091,
1097 n.4 (9th Cir. 2004).

14a
nullify or cancel; make void; invalidate.” Black’s Law
Dictionary 1782 (10th ed. 2014) (emphasis added).
Nevertheless, Defendants maintain that the state
court did not declare the convictions “invalid,” as
required by Heck, despite vacatur, because Plaintiffs,
pursuant to the Settlement Agreement, “confirm[ed]
the validity of their original convictions and sentences.” The district court agreed, concluding that
vacating Plaintiffs’ convictions and sentences “is not
the same thing [as invalidating them] for purposes of
Heck.” Roberts, 2018 WL5259453, at *10. The dissent
claims allowing a § 1983 action based on vacated
convictions is novel and contrary to our precedents.
See post, at 1210. We address each argument in turn.
B
The district court’s ruling and the dissent’s proposed
disposition conflict with our decisions in RosalesMartinez v. Palmer, 753 F.3d 890 (9th Cir. 2014), and
Taylor v. County of Pima, 913 F.3d 930 (9th Cir. 2019).
Unfortunately, the district court did not have the
benefit of Taylor, our most recent decision in this area,
when it dismissed the case. There, we considered the
vacatur of multiple convictions pursuant to an agreement following a post-conviction relief petition based
on newly discovered evidence calling the convictions
into question—mirroring the circumstances here. 913
F.3d at 932. The appellant in Taylor—convicted of
felony murder in 1972—entered into a plea agreement
with the state in 2013 whereby his original 1972
conviction was vacated, he pleaded no contest to the
same counts, was resentenced to time served, and was
ultimately released from prison. Id.
Our opinion in Taylor was firmly rooted in the
reasoning that vacatur of a conviction by a state court
constitutes invalidation under Heck. Specifically, we

15a
said that “under Heck, a plaintiff in a § 1983 action
may not seek a judgment that would necessarily imply
the invalidity of a state-court conviction or sentence
unless, for example, the conviction had been vacated
by the state court.” Id. at 935 (emphasis added).
We confirmed the district court’s proper analysis of
Heck: “Heck does not bar [Taylor] from raising claims
premised on alleged constitutional violations that
affect his 1972 convictions [which had been vacated
pursuant to the settlement] but do not taint his 2013
convictions [to which he pleaded no contest].” Id.
(internal quotation marks omitted). We concluded that
“Taylor’s 1972 jury conviction ha[d] been vacated by
the state court, so Heck pose[d] no bar to a challenge to
that conviction or the resulting sentence.” Id. (emphasis added). We ultimately held that Taylor was barred
from seeking incarceration-related damages because
all the time he served was “supported by the valid
2013 state-court judgment,” not the vacated 1972
convictions. Id.
Our dissenting colleague contends that Taylor’s
conclusion that § 1983 suits based on vacated convictions are not barred by Heck is merely an “offhand
comment” that was made “in passing” and is therefore
not binding. Post, at 1211. We think that reading of
Taylor is too narrow. We expressly held there that
Heck did not bar Taylor from seeking damages related
to the 1972 conviction—just that Taylor could not seek
incarceration-related damages, because the valid 2013
conviction “[a]s a matter of law . . . caused the entire
period of his incarceration.” Taylor, 913 F.3d at 935.
Cf. Jackson v. Barnes, 749 F.3d 755, 762 (9th Cir.
2014) (allowing a § 1983 suit for nominal and punitive
damages—but not incarceration-related damages—
where the plaintiff was convicted, his conviction was
set aside on habeas for Miranda violations, and he

16a
was subsequently reconvicted without the tainted
evidence). Taylor specifically challenged “his 1972
prosecution, convictions, and sentence and [did] not
challenge his 2013 ‘no contest’ pleas,” recognizing that
Heck would bar only the non-vacated judgment.
Taylor, 913 F.3d at 935 (internal quotation marks
omitted). We agreed that the 2013 judgment was valid
because it had not been vacated, unlike the 1972
conviction. Id.
Far from an “offhand comment” made “in passing,”
Taylor’s understanding that a vacated conviction was
“declared invalid” under Heck was an integral element
underpinning our holding. We held that only the 2013
conviction—not the vacated 1972 conviction—barred
his claim for incarceration-related damages, and we
called the fact that the 2013 conviction supported his
entire period of incarceration “critical[ ].” Id. That is
no idle comment made in passing. Unlike in Taylor,
here there is no substitute outstanding conviction to
bar Plaintiffs from their suit for damages as Taylor’s
2013 conviction barred his.
In Rosales-Martinez, the state court vacated the
plaintiff’s convictions pursuant to a settlement agreement following his filing of a habeas corpus petition
alleging Brady violations. See 753 F.3d at 893. In
2004, Rosales-Martinez was convicted of four drugrelated counts and sentenced to a term of imprisonment of 10 to 25 years. Id. at 892. He filed a state
habeas petition after learning that the sole witness to
testify against him had a criminal history that was
not disclosed by the state as ordered by the court. Id.
Rosales-Martinez then entered into a stipulated
agreement with the state in which he agreed to
withdraw his habeas petition and to plead guilty to one
of the counts for which he was charged in exchange for

17a
the state’s recommending vacatur of his other convictions “based on the cumulative errors” he alleged and
recommending to the court that he be sentenced only
to time served. Id. at 893.
The state court accepted the agreement, vacated
three of the four counts, and imposed a punishment
of time served, whereupon Rosales-Martinez was
released from prison. Id. at 894. He then filed a § 1983
action in federal district court based on the state’s
alleged Brady violations. Id. at 892. The district court
concluded that Rosales-Martinez’s § 1983 claim was
untimely because he failed to file it within the twoyear statute of limitations. Id. at 895. The court based
its decision on the rule that “[a] federal claim accrues
when the plaintiff knows or has reason to know of the
injury which is the basis of the action.”9 Id. (internal
quotation marks and citation omitted).
We reversed, pointing to the Supreme Court’s holding in Heck that “a § 1983 action challenging a conviction or sentence does not ‘exist[ ]’ until the conviction
or sentence is invalidated.” Id. at 896 (alteration in
original) (citation omitted). Applying this rule, we stated,
“Heck therefore teaches that Rosales-Martinez’s
claims did not accrue until the Nevada court vacated
those convictions on December 2, 2008.” Id. We thus
implicitly held that vacating a conviction pursuant to
a settlement agreement serves to invalidate the
conviction under Heck. Specifically, we stated that
“Rosales-Martinez pleaded guilty to one of the four

9

The court applied a statute of limitations of two years as
provided by Nevada state law. “Nevada law provides the statute
of limitations because, in the absence of a federal provision for
§ 1983 actions, the analogous state statute of limitations for personal injury claims applies.” Rosales-Martinez, 753 F.3d at 895.

18a
counts of his original conviction, with the other three
being held invalid.” Id. at 899 (emphasis added).
We went on to remand the case so the district court
could determine how Rosales-Martinez’s guilty plea
to one count under the release-dismissal agreement
should be addressed:
The fact that Rosales-Martinez was reconvicted following the vacation of his initial
convictions, means that he still has an outstanding conviction. This outstanding conviction raises the question whether RosalesMartinez’s § 1983 action is barred by Heck’s
holding that “[a] claim for damages [based] on
a conviction or sentence that has not been so
invalidated is not cognizable.”
Id. at 897 (quoting Heck, 512 U.S. at 487, 114 S.Ct.
2364) (alterations in original). Indeed, our decision
reversing the lower court was contingent upon the
finding that Heck does not bar a suit for damages
based on convictions that were vacated pursuant to a
settlement agreement.
The dissent’s attempt to distinguish RosalesMartinez is unconvincing. The dissent argues that
Rosales-Martinez does not support our holding here
because in that case we remanded “so the district court
could address the viability of the plaintiff’s complaint
in the first instance.” Post, at 1211. But the dissent
misreads our opinion in Rosales-Martinez. We remanded that case not because we doubted that the
state court’s vacatur of Rosales-Martinez’s three
convictions invalidated them for purposes of Heck, but
because his plea to the remaining count “suggest[ed] a
continuous validity to a portion of his original conviction and sentence,” and, therefore, “a possible incon-

19a
sistency between it and a § 1983 action.” RosalesMartinez, 753 F.3d at 899. Indeed, on the same page
of the opinion that the dissent cites for the proposition
that we remanded the case “so the district court could
address the viability of the plaintiff’s complaint in the
first instance,” post, at 1211, we instructed the district
court to determine Rosales-Martinez’s prospects for
compensatory damages “based on the convictions that
were vacated as invalid,” Rosales-Martinez, 753 F.3d
at 899 (emphasis added). Guided by these decisions
and the plain language of Heck, we must order
reversal here.10
C
Nevertheless, the district court held, and the dissent
argues, that vacatur-by-settlement does not qualify
as invalidation under Heck. See Roberts, 2018 WL
5259453, at *8 (“All the Superior Court did was vacate
plaintiffs’ convictions pursuant to the settlement
agreements and the stipulation. The Superior Court
did not declare their convictions invalid.”); see post, at
1210. The dissent’s view that a conviction vacated
by settlement is not “declared invalid” under Heck
appears to arise out of its conflation of the favorable10

There is a fundamental difference in how we and the dissent
read Heck. The dissent cites language defining an “outstanding
criminal judgment” in McDonough v. Smith, ––– U.S. ––––, 139
S. Ct. 2149, 204 L.Ed.2d 506 (2019) (quoting Wallace v. Kato, 549
U.S. 384, 393, 127 S.Ct. 1091, 166 L.Ed.2d 973 (2007)). See post,
at 1213. The dissent ignores the very next sentence in the Wallace
opinion, which explains that the Heck rule for deferred accrual
“delays what would otherwise be the accrual date of a tort action
until the setting aside of an extant conviction.” 549 U.S. at 393,
127 S.Ct. 1091. There are no extant convictions here. All convictions were set aside. In the absence of any remaining convictions,
Heck does not bar § 1983 claims. Our reading of Heck comports
with that of our circuit precedent in Taylor and Rosales-Martinez.

20a
termination rule in the tort of malicious prosecution
with Heck’s four distinct means of favorable termination.11 See post, at 1214–15.
To be sure, Heck did create a favorable-termination
rule, see Huftile v. Miccio-Fonseca, 410 F.3d 1136,
1139 (9th Cir. 2005), and the Supreme Court in Heck
called malicious prosecution the “closest analogy” to a
§ 1983 suit for wrongful conviction, 512 U.S. at 484,
114 S.Ct. 2364. But Heck’s favorable-termination
requirement is distinct from the favorable-termination
element of a malicious-prosecution claim. Compare
Awabdy, 368 F.3d at 1068 (malicious-prosecution
plaintiff must “establish that the prior proceedings
terminated in such a manner as to indicate his
innocence”), with Heck, 512 U.S. at 486–87, 114 S.Ct.
2364 (favorable-termination rule satisfied when conviction or sentence is (1) reversed on direct appeal, (2)
expunged by executive order, (3) declared invalid by a
state court, or (4) called into question by a federal
court’s issuance of a writ of habeas corpus).
The dissent’s contention to the contrary—that the
analogy to malicious prosecution means that a § 1983
11

The dissent quotes from the Supreme Court’s recent opinion
in McDonough to support its apparent claim that Heck establishes an exact replica of the favorable-termination rule from the
malicious-prosecution context. See post, at 1208. McDonough—a
statute-of-limitations case—holds no such thing. Describing
when a plaintiff may bring a § 1983 suit alleging fabrication of
evidence, the Court wrote: “Only once the criminal proceeding
has ended in the defendant’s favor, or a resulting conviction has
been invalidated within the meaning of Heck . . . will the statute
of limitations begin to run.” McDonough, 139 S. Ct. at 2158 (internal citation omitted) (emphasis added). By posing the favorabletermination rule and invalidation under Heck disjunctively,
McDonough firmly undermines the dissent’s insinuation that
they are coterminous.

21a
suit is barred by Heck unless the plaintiff could
bring a claim for malicious prosecution at common
law, see post, at 1214—is simply wrong. That
argument contravenes the plain language of Heck,
because convictions’ being “called into question by a
federal court’s issuance of a writ of habeas corpus,”
Heck, 512 U.S. at 487, 114 S.Ct. 2364—the fourth
listed exception to the Heck bar—does not necessarily
indicate the innocence of the accused, as is required
for a malicious-prosecution action to be maintained.
The Second Restatement of Torts—the very source
upon which the dissent relies, see post, at 1214—states
that, where “new proceedings for the same offense
have been properly instituted and have not been
terminated in favor of the accused,” there has been no
“sufficient termination to meet the requirements of a
cause of action for malicious prosecution.” Restatement (Second) of Torts § 660; see also id. § 660 cmt. g
(“When the charge has been properly revived under
the criminal procedure of the particular jurisdiction,
there can be no liability . . . until the new proceedings
have terminated in favor of the accused.”). Prosser &
Keeton on Torts is in accord: “Any disposition of the
criminal action which does not terminate it but permits it to be renewed . . . cannot serve as a foundation
for the action [of malicious prosecution].” W. Page
Keeton et al., Prosser & Keeton on Torts § 119, at
874 (5th ed. 1984). Thus, a “favorable” final order or
disposition must “preclude[ ] the bringing of further
proceedings against the accused.” Restatement
(Second) of Torts § 659 cmt. g; see also id. § 660 cmt. a
(“Proceedings are ‘terminated in favor of the accused,’
. . . only when their final disposition is such as
to indicate the innocence of the accused.”). In short,
there is no favorable termination in the maliciousprosecution context when new proceedings for the

22a
same offense have been instituted and are not subsequently terminated in favor of the accused.12
In light of these well-established common-law principles, the dissent’s suggestion that vacatur-bysettlement cannot qualify as a favorable termination
under Heck because settlement was not considered
a favorable termination at common law must fail.
Convictions “called into question by a federal court’s
issuance of a writ of habeas corpus” routinely terminate in a manner that could not sustain a maliciousprosecution action. Indeed, it is not uncommon in
the context of habeas relief for an individual to be
subsequently re-tried and re-convicted on the same
charges. See, e.g., Jackson, 749 F.3d at 758. Our sister
circuits are in accord. See, e.g., Pratt v. United States,
129 F.3d 54, 56 (1st Cir. 1997); United States v.
Whitley, 734 F.2d 994, 996 (4th Cir. 1984); Gamble v.
Estelle, 551 F.2d 654, 654–55 (5th Cir. 1977); Mullreed
v. Kropp, 425 F.2d 1095, 1096–97 (6th Cir. 1970).
12

The common-law treatises cited by the dissent, see post, at
1214 n.9, are in harmony. See 8 Stuart M. Speiser et al., American
Law of Torts § 28:5 (2019) (regurgitating the standard recited in
the Second Restatement); 54 C.J.S. Malicious Prosecution § 60
(“With respect to the malicious prosecution requirement that the
prior proceeding must have terminated in plaintiff’s favor, termination of the prosecution must be in such a manner that it cannot
be revived.” (emphasis added)); id. at § 61 (“The inquiry into
whether a termination of a criminal prosecution was favorable to
the defendant focuses on whether it was dispositive as to the
defendant’s innocence of the crime for which the defendant was
charged.”). Cf. id. § 63 (“A criminal proceeding in which the
accused was originally convicted, but the conviction was reversed
on appeal following a determination that the evidence on which
the conviction was based had been obtained pursuant to a faulty
search warrant, does not result in a favorable termination for the
accused and thus cannot provide a basis for a malicious prosecution claim.”).

23a
Thus, the dissent’s reading of Heck’s favorabletermination rule simply cannot be maintained. Both
the common-law principles discussed above and our
precedents in Rosales-Martinez and Taylor make clear
that the law of our circuit is not that Heck bars a
§ 1983 suit unless the plaintiff could succeed in a
malicious-prosecution action, as the dissent would
apparently hold.13
D
The dissent accuses us of creating “a fifth method of
favorable termination” in addition to Heck’s four—
namely, vacatur-by-settlement. Post, at ––––. Not so.
We merely hold that where, as here, a § 1983 plaintiff’s
conviction is vacated by a state court, that conviction
has been “declared invalid by a state tribunal authorized to make such determination,” Heck, 512 U.S. at
487, 114 S.Ct. 2364 (the third exception to Heck’s bar),
and that Heck is therefore no bar to the suit.
The dissent also claims that our holding today would
allow “criminal defendants who served their sen13

The dissent cites language from Manuel v. City of Joliet,
Ill., ––– U.S. ––––, 137 S. Ct. 911, 197 L.Ed.2d 312 (2017),
arguing that it appears to undermine the contention that “favorable termination” is not coterminous in the malicious-prosecution
and Heck contexts. Post, at 1208–09. Explaining its reliance on
common-law principles “[i]n defining the contours and prerequisites of a § 1983 claim,” the Supreme Court in Manuel cited Heck
in support of the assertion that “[s]ometimes, th[e] review of
common law will lead a court to adopt wholesale the rules that
would apply in a suit involving the most analogous tort.” 137 S.
Ct. at 920–21. However, regardless of what the Court meant by
its “adopt wholesale” statement, it cannot be interpreted in a
manner inconsistent with the plain language of Heck itself.
As described above, interpreting this passing statement to mean
that the favorable-termination requirement is coextensive in both
the malicious-prosecution and Heck contexts contravenes a plain
reading of Heck and our circuit’s case law.

24a
tences” to “subsequently bring § 1983 actions to
establish that they had been wrongfully convicted.”
Post, at 1213. That, too, is incorrect. That reasoning
conflates “conviction” and “incarceration.” A person
who is released from incarceration after fully executing his sentence would be barred from bringing a
§ 1983 suit based on that conviction because the
conviction remains “extant.”14 Wallace, 549 U.S. at
393, 127 S.Ct. 1091. Indeed, as noted above, our holding adheres to Heck’s requirement that a conviction be
invalidated in accordance with one of the four methods
set out by the Court.
The dissent’s effort to demonstrate the continuing
validity of Plaintiffs’ vacated convictions is based on
an incomplete analysis of the Settlement Agreement’s
stipulations. The dissent claims that the convictions
are still valid, even post-vacatur, based in part on
the following stipulation agreed to by the parties:
“[T]he original jury verdicts and judgments of conviction were properly and validly entered based on proof
beyond a reasonable doubt.” That conclusion is problematic for two reasons.
First, Plaintiffs allege the stipulations were the
product of an unenforceable agreement to waive
their civil-rights claims. The adjudication of that claim
may well result in a very different outcome on remand.
14

The dissent accuses us of “play[ing] word games” in reaching
this conclusion. Post, at 1212–13 n.6. However, the dissent provides no authority for its assertion that, based on our reasoning,
“a court could conclude that a defendant who has fully served a
sentence has satisfied or discharged the convictions so that it is
no longer ‘outstanding’ or ‘extant’ “ for purposes of Heck. Id. Nor
can it. We explicitly disclaim that characterization of our opinion:
under our holding today, a person who has served his sentence
but whose conviction remains unimpeached is barred by Heck
from bringing a § 1983 suit based on that conviction.

25a
Second, even if the Settlement Agreement were
deemed enforceable, reading this stipulation to mean
that Plaintiffs agree the convictions are currently valid
ignores the very next stipulation, which acknowledges
that new evidence now undermines the validity of
the original verdicts and “requires vacation of the
conviction or sentence in the interest of justice”
pursuant to Alaska Statute § 12.72.010(4) (emphasis
added). That stipulation declares that “[t]he parties
stipulate and agree that there is sufficient new
evidence of material facts that a new trial could be
ordered under AS § 12.72.010(4).” Id. Indeed, these
stipulations reflect the parties’ agreement that (1) the
original verdicts were properly and validly entered in
1997, and (2) now, a new trial could be ordered based
on new evidence calling into question whether Plaintiffs were actually the killers, thus requiring vacatur
of their once-valid convictions.
While we do not make a finding regarding the newly
introduced evidence, we do note that the dissent’s
conclusion that the vacated convictions are still valid
is undermined by its failure to look at the actual result
of the Settlement Agreement. There are no charges
pending against any of these men four years after the
Settlement Agreement was entered into. Nor do they
stand convicted of anything.
IV
Defendants argue, in the alternative, that joinder
requirements under Federal Rule of Civil Procedure
19 bar Plaintiffs’ § 1983 claims because the State of
Alaska is an indispensable party to this litigation. We
reject this argument.
In deciding whether a party is indispensable, we
“must determine: (1) whether an absent party is neces-

26a
sary to the action; and then, (2) if the party is necessary, but cannot be joined, whether the party is indispensable such that in equity and good conscience the
suit should be dismissed.” Dawavendewa v. Salt River
Project Agr. Imp. & Power Dist., 276 F.3d 1150, 1155
(9th Cir. 2002) (internal quotation marks and citation
omitted). Under Rule 19, a party is required to be
joined, if feasible, when:
(A) in that person’s absence, the court cannot
accord complete relief among existing parties;
or
(B) that person claims an interest relating to the
subject of the action and is so situated that
disposing of the action in the person’s absence
may:
(i) as a practical matter impair or impede the
person’s ability to protect the interest; or
(ii) leave an existing party subject to a substantial risk of incurring double, multiple, or
otherwise inconsistent obligations because
of the interest.
Fed. R. Civ. P. 19.
We have held that joinder is “contingent . . . upon
an initial requirement that the absent party claim
a legally protected interest relating to the subject
matter of the action.” United States v. Bowen, 172 F.3d
682, 689 (9th Cir. 1999) (quoting Northrop Corp. v.
McDonnell Douglas Corp., 705 F.2d 1030, 1043 (9th
Cir. 1983)). In Thomas, Head & Greisen Employees
Trust v. Buster, we similarly held that an entity was
not an indispensable party to an action because “[it]
had not claimed an interest in [the defendant’s]
limited partnership . . . at the time of the default

27a
judgment and the district court was able to craft
appropriate and meaningful relief in the absence of
[the entity] which . . . did not prejudice [its] property
rights.” 95 F.3d 1449, 1460 n.18 (9th Cir. 1996).
The State of Alaska is not a necessary party here
because it has not claimed any interest relating to the
subject of this action, as confirmed by Defendants.
Plaintiffs may obtain complete relief through their
§ 1983 claims against the City of Fairbanks and its
officers—the alleged perpetrators of the § 1983 violations—if their action is successful. We therefore hold
that the State is not an indispensable party under
Rule 19 and reject Defendants’ alternate ground for
affirmance.
V
Defendants also argue that Plaintiffs’ § 1983 claims
may be dismissed based on the equitable doctrine of
judicial estoppel, and that Plaintiffs failed to state
claims for malicious prosecution, even if not barred by
Heck, because they did not allege a favorable termination. Because these arguments turn in part on the
enforceability of the Settlement Agreement—an issue
not passed upon below—we will allow the district
court to address these issues in the first instance. See
Town of Newton v. Rumery, 480 U.S. 386, 392–93, 107
S.Ct. 1187, 94 L.Ed.2d 405 (1987); Lynch v. City of
Alhambra, 880 F.2d 1122, 1125 (9th Cir. 1989).
In Rumery, the Supreme Court considered “whether
a court properly may enforce an agreement in which a
criminal defendant releases his right to file an action
under 42 U.S.C. § 1983 in return for a prosecutor’s
dismissal of pending criminal charges.” 480 U.S.
at 389, 107 S.Ct. 1187. Rumery filed § 1983 claims
against the town and its officers, alleging that they
had “violated his constitutional rights by arresting

28a
him, defaming him, and imprisoning him falsely.” Id.
at 391, 107 S.Ct. 1187. But before bringing suit,
Rumery had agreed to release any claims he might
have against the town and its officials to obtain the
dismissal of criminal charges that had been brought
against him. Id. at 390– 91, 107 S.Ct. 1187. In evaluating whether Rumery was free to bring § 1983 claims
despite the release-dismissal agreement, the Court, in
a plurality decision, held that the enforceability of the
agreement must first be established. Id. at 392–93,
107 S.Ct. 1187. The Court adopted a case-by-case
approach to determine (1) whether the agreement was
entered into voluntarily, and (2) whether enforcement
is in the public interest. Id. at 398, 107 S.Ct. 1187
(“[W]e conclude that this agreement was voluntary,
that there is no evidence of prosecutorial misconduct,
and that enforcement of this agreement would not
adversely affect the relevant public interests.”); see
also id. at 399–401, 107 S.Ct. 1187 (O’Connor, J., concurring). We later concluded in Lynch that “Rumery
requires the district court to hear the evidence and
evaluate whether the public interest is served by
enforcement of the release-dismissal agreement.” 880
F.2d at 1128.15
Here, the district court dismissed Plaintiffs’ claims
at the pleading stage and did not hear any evidence to
determine whether Plaintiffs voluntarily entered into
15

Following Rumery, we acknowledged that “the availability
of release-dismissal agreements creates a risk that public officials
will use the threat of criminal prosecution to suppress civil rights
claims.” Lynch, 880 F.2d at 1127 (citing Rumery, 480 U.S. at 394,
107 S.Ct. 1187). Given the facts before us in Lynch, we found that
“[t]he limited empirical evidence available suggests that this may
be the case.” Id. We do not address that question here since the
district court did not conduct a Rumery hearing.

29a
the Settlement Agreement or whether enforcement is
in the public interest.16 Therefore it is premature for
us to address whether the Settlement Agreement is
enforceable, and we leave that issue for the district
court.
VI
We hold that the district court erred in applying the
Heck rule to dismiss Plaintiffs’ claims. We therefore
vacate the district court’s dismissal order and remand
for further proceedings consistent with this opinion.
REVERSED, VACATED, and REMANDED with
instructions.

16

Generally, the burden of pleading and proving the enforceability of a release-dismissal agreement would fall to defendants.
Perry v. Merit Sys. Prot. Bd., ––– U.S. ––––, 137 S. Ct. 1975, 1986
n.9, 198 L.Ed.2d 527 (2017) (“In civil litigation, a release is an
affirmative defense to a plaintiff’s claim for relief, not something
the plaintiff must anticipate and negate in her pleading.” (citing
Fed. R. Civ. P. 8(c)(1) and Rumery, 480 U.S. at 391, 107 S.Ct.
1187)); see also Lynch, 880 F.2d at 1125 (“Justice O’Connor,
agreeing with the plurality’s result, wrote separately to emphasize that the burden of establishing the enforceability of such
agreements is borne by the civil rights defendants.” (emphasis
added)); id. at 1126 n.5 (“We note, therefore, that a majority of
the Supreme Court in Rumery expressed the view that the burden
of establishing that a release-dismissal agreement does not
violate public policy rests with the civil-rights defendant seeking
to invoke the agreement as a defense.”). Thus, to win on their
judicial estoppel defense, Defendants have the burden of proving
the enforceability of the Settlement Agreement. However, insofar
as Plaintiffs have alleged the unenforceability of the Settlement
Agreement to meet elements of their claims for relief, they would
bear the burden of proof on enforceability.

30a
IKUTA, Circuit Judge, dissenting:
The Supreme Court could not have been more clear:
“[T]o recover damages for allegedly unconstitutional
conviction or imprisonment,” a § 1983 plaintiff “must
prove that the conviction or sentence has been [1]
reversed on direct appeal, [2] expunged by executive
order, [3] declared invalid by a state tribunal authorized to make such determination, or [4] called into
question by a federal court’s issuance of a writ of
habeas corpus.” Heck v. Humphrey, 512 U.S. 477, 486–
87, 114 S.Ct. 2364, 129 L.Ed.2d 383 (1994) (emphasis
added). In other words, to claim tort damages for a
wrongful conviction, the plaintiff must prove that a
court (or the executive) recognized that the conviction
was invalid and wiped out the conviction. In holding
that the plaintiffs here can bring § 1983 claims without meeting this requirement, the majority squarely
contradicts Supreme Court precedent. I therefore
dissent.
I
A brief description of some key facts is in order. The
plaintiffs were all tried and convicted of murder in
1997. Several years later, they filed petitions for postconviction relief based on new evidence. The majority
recounts in detail the striking and persuasive evidence
adduced by the plaintiffs at a post-conviction
hearing—but this evidence is irrelevant, as there was
no judicial determination that the facts recited by the
majority are true or the witnesses credible. All we
know is that the plaintiffs chose not to wait for the
state court’s ruling on their petitions, but instead
entered into settlement agreements with the state and
the City of Fairbanks that left the truth about their
underlying convictions undecided. In fact, the settlement agreements expressly state they do not address

31a
issues related to the underlying convictions: the parties agreed that they had “not reached agreement as
to . . . actual guilt or innocence.” Rather than resolve
the merits of their prior convictions, plaintiffs (all
of whom were represented by counsel) agreed to
withdraw their petitions for post-conviction relief, as
well as all claims of actual innocence and all allegations of police and prosecutorial misconduct. The
plaintiffs also agreed to release the state and the City
of Fairbanks (and their employees) from all liability
arising out of or related to their arrests and convictions.
As required by the settlement agreements, the
parties filed a stipulation with the state court that
went even further than the settlement agreements.
Rather than describe the prior convictions as wrongful
or invalid, the parties agreed that “the original jury
verdicts and judgments of conviction were properly
and validly entered based on proof beyond a reasonable doubt.” The parties then agreed that the state
court could vacate the judgment of conviction and
order a new trial. Upon the court doing so, the state
would dismiss the indictments. The court would then
be obliged to order the plaintiffs’ release.
Faced with the settlement agreements and the
stipulation, the state court made clear that it was
not opining on the merits of the underlying convictions
or the terms of the settlements. At a hearing on
December 17, 2015, a relative of the murder victim
protested the settlements. In response, the state court
explained that the attorney general was exercising his
lawful authority to settle civil litigation, and the court
had “no power of review or approval.” “The duty of this
Court, once that inherent authority is exercised, using
the structures of the law, is to ministerially sign the

32a
orders necessary to [e]ffect the decision of the attorney
general.” Because the settlement agreements were
procedurally proper, the state court explained, it was
required to enter the “appropriate order” to vacate the
plaintiffs’ convictions. And once the plaintiffs’ convictions were vacated, the state attorney general had the
authority to dismiss the indictments. Under state law,
the court had no power to block this exercise of
authority; rather, the court “would violate the separation of powers in any attempt to stop him.” As the court
summed up, “[t]hat’s a long way of saying that this is
a lawful settlement conducted under lawful procedure,
under the inherent authority of the attorney general,
over which this Court has no authority to . . . review
or to criticize.” The same day, the state court vacated
the plaintiffs’ judgments of conviction and commitment.
About two years later, on December 7, 2017, the
plaintiffs filed a complaint against the City of Fairbanks
and the police officers who were involved in obtaining
the plaintiffs’ convictions. The plaintiffs asked the
court to order that the settlement agreements were
unenforceable, which would relieve them from their
agreements that their convictions were properly and
validly entered as well as relieving them from their
broad releases of liability. But the plaintiffs did not
request vacatur of the stipulation, which was the basis
for the dismissal of their indictments and vacatur of
their convictions. Rather, the plaintiffs alleged that
the dismissal of their indictments and vacatur of their
convictions were “valid and cannot be undone even
though the release cannot be enforced against” them.
Thus, realizing the benefits of the stipulation while
ignoring the obligations imposed by the settlement
agreement, the plaintiffs alleged that the officers’
“unlawful, intentional, willful, deliberately indifferent,

33a
reckless, and bad-faith acts and omissions caused [the
plaintiffs] to be falsely arrested and imprisoned,
unfairly tried, wrongfully convicted, and forced to
serve more than 18 years imprisoned.” The district
court dismissed the complaint as barred by Heck, and
this appeal followed.
II
Given that the plaintiffs did not wait for a judicial
ruling that their prior convictions were invalid, but
instead chose to vacate those convictions by means of
settlements, the question arises whether the plaintiffs
can nevertheless bring constitutional tort claims for
wrongful conviction under § 1983. The answer under
Heck v. Humphrey, 512 U.S. 477, 114 S.Ct. 2364, 129
L.Ed.2d 383 (1994), is no.
A
Heck v. Humphrey held that § 1983 “creates a
species of tort liability,” and that “over the centuries
the common law of torts has developed a set of rules to
implement the principle that a person should be
compensated fairly for injuries caused by the violation
of his legal rights.” Id. at 483, 114 S.Ct. 2364 (quoting
Carey v. Piphus, 435 U.S. 247, 257–58, 98 S.Ct. 1042,
55 L.Ed.2d 252 (1978)). Accordingly, the Court held
that the common law rules “defining the elements of
damages and the prerequisites for their recovery[ ]
provide the appropriate starting point for the inquiry
under § 1983.” Id. (quoting Carey, 435 U.S. at 257–58,
98 S.Ct. 1042).
In Heck, the petitioner had filed a suit in district
court under § 1983 against two state prosecutors and
a police investigator, alleging that they had engaged
in an illegal investigation leading to the petitioner’s

34a
conviction. Id. at 478–79, 114 S.Ct. 2364. The petitioner’s complaint sought compensatory and punitive
monetary damages. Id. at 479, 114 S.Ct. 2364. Heck
concluded that “[t]he common-law cause of action for
malicious prosecution provides the closest analogy” to
the petitioner’s claims for damages because “it permits
damages for confinement imposed pursuant to legal
process.” Id. at 484, 114 S.Ct. 2364.
Having identified malicious prosecution as the most
analogous common-law cause of action for a claim of
wrongful conviction, the Court focused on one of its key
elements: “One element that must be alleged and
proved in a malicious prosecution action is termination of the prior criminal proceeding in favor of the
accused.” Id. This element of favorable termination
“avoids parallel litigation over the issues of probable
cause and guilt” and “precludes the possibility of the
claimant succeeding in the tort action after having
been convicted in the underlying criminal prosecution,
in contravention of a strong judicial policy against the
creation of two conflicting resolutions arising out of
the same or identical transaction.” Id. (cleaned up).
Accordingly, Heck concluded that “the hoary principle
that civil tort actions are not appropriate vehicles for
challenging the validity of outstanding criminal
judgments,” which has “always applied to actions for
malicious prosecution,” is equally applicable to § 1983
damages actions that require “the plaintiff to prove
the unlawfulness of his conviction or confinement.” Id.
at 486, 114 S.Ct. 2364. In other words, if a plaintiff had
been convicted, and that conviction had not been
invalidated on appeal or through procedures for postconviction relief, the plaintiff cannot prevail in a civil

35a
tort suit that requires the plaintiff to prove that the
prior conviction or sentence was invalid. See id.1
Since Heck, the Court has reaffirmed the requirement that a plaintiff bringing a § 1983 malicious
prosecution action must establish termination of the
prior conviction in his favor. Indeed, just last year, the
Court noted that “Heck explains why favorable termination is both relevant and required for a claim
analogous to malicious prosecution that would impugn
a conviction, and that rationale extends to an ongoing
prosecution as well: The alternative would impermissibly risk parallel litigation and conflicting judgments.” McDonough v. Smith, ––– U.S. ––––, 139 S.
Ct. 2149, 2160, 204 L.Ed.2d 506 (2019) (emphasis
added); see also Manuel v. City of Joliet, Ill., –––
U.S. ––––, 137 S. Ct. 911, 920–21, 197 L.Ed.2d 312
(2017) (“Sometimes, . . . review of common law will
lead a court to adopt wholesale the rules that would
apply in a suit involving the most analogous tort.
See . . . Heck v. Humphrey.”); Huftile v. Miccio-Fonseca,
410 F.3d 1136, 1138–39 (9th Cir. 2005) (discussing
Heck’s “favorable termination rule”).
After adopting malicious prosecution’s favorabletermination rule, Heck articulated what satisfied the
necessary element of “termination of the prior criminal proceeding in favor of the accused.” 512 U.S. at
1

Heck also stated that a § 1983 action cannot be used as a
substitute for a petition for writ of habeas corpus, 512 U.S. at 480,
114 S.Ct. 2364, although under Heck’s reasoning, the habeas
statute and § 1983 “were never on a collision course in the first
place because, like the common-law tort of malicious prosecution,
§ 1983 requires (and, presumably, has always required) plaintiffs
seeking damages for unconstitutional conviction or confinement
to show the favorable termination of the underlying proceeding,”
id. at 492, 114 S.Ct. 2364 (Souter, J., concurring).

36a
484, 114 S.Ct. 2364. According to Heck, “to recover
damages for allegedly unconstitutional conviction or
imprisonment, or for other harm caused by actions
whose unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must prove that the
conviction or sentence has been [1] reversed on direct
appeal, [2] expunged by executive order, [3] declared
invalid by a state tribunal authorized to make such
determination, or [4] called into question by a federal
court’s issuance of a writ of habeas corpus.” Id. at 486–
87, 114 S.Ct. 2364 (emphasis added); see also id. at
489, 114 S.Ct. 2364 (“Even a prisoner who has fully
exhausted available state remedies has no cause of
action under § 1983 unless and until the conviction or
sentence is reversed, expunged, invalidated, or
impugned by the grant of a writ of habeas corpus.”).
Eliminating any doubt that a plaintiff must show
one of these four terminations, Heck stated that “[a]
claim for damages bearing that relationship to a
conviction or sentence that has not been so invalidated
is not cognizable under § 1983.” Id. at 487, 114 S.Ct.
2364 (emphasis added). If a plaintiff cannot make the
necessary showing, the plaintiff cannot bring a § 1983
malicious prosecution action that requires “the plaintiff to prove the unlawfulness of his conviction or
confinement.” Id. at 486–87, 114 S.Ct. 2364. Instead,
the plaintiff can bring only those § 1983 claims that do
not “demonstrate the invalidity of any outstanding
criminal judgment against the plaintiff,” such as “a
suit for damages attributable to an allegedly unreasonable search,” because “such a § 1983 action, even if
successful, would not necessarily imply that the

37a
plaintiff’s conviction was unlawful.” Id. at 487 & n. 7,
114 S.Ct. 2364.2
B
As Heck makes plain, the plaintiffs here are precluded from bringing a § 1983 malicious prosecution
action because their underlying convictions were not
invalidated but were instead vacated pursuant to
settlement agreements. The plaintiffs expressly
agreed that they had “not reached agreement as to . . .
actual guilt or innocence” and stipulated that “the
original jury verdicts and judgments of conviction
were properly and validly entered based on proof
beyond a reasonable doubt.”3 No court has ruled on the
2

As we have explained, “under certain circumstances a plaintiff’s § 1983 claim is not Heck-barred despite the existence of an
outstanding criminal conviction against him.” Jackson v. Barnes,
749 F.3d 755, 760 (9th Cir. 2014). For example, “plaintiffs who
had been convicted for driving under the influence of alcohol
could challenge the way in which their blood had been drawn
when they were arrested” because their convictions were based
on their pleas, “not [on] verdicts obtained with supposedly illegal
evidence.” Id. (quoting Ove v. Gwinn, 264 F.3d 817, 823 (9th Cir.
2001)). Similarly, “a plaintiff convicted of resisting arrest could
bring a § 1983 action for excessive use of force if the excessive
force was employed against him after he had engaged in the
conduct that constituted the basis for his conviction, because in
such a case success on his § 1983 action would not imply the
invalidity of the conviction.” Id. (citing Smith v. City of Hemet,
394 F.3d 689, 693 (9th Cir. 2005) (en banc)).
3

The majority argues that it is improper to consider the
parties’ stipulation, because the plaintiffs allege that the “stipulations were the product of an unenforceable agreement to waive
their civil-rights claims.” Maj. at 1203. The majority is mistaken;
this allegation appears nowhere in the record. Rather, the record
establishes that the plaintiffs rely on the validity of the stipulation by alleging that “[t]he dismissal of the indictment[s] and
vacation of [their] conviction[s]” are “valid and cannot be undone

38a
validity of the plaintiffs’ prior convictions or made a
finding as to the plaintiffs’ guilt or innocence. Indeed,
the state court explained in great detail that it had no
power to review, approve, or block the attorney
general’s discretionary decision to vacate the convictions and dismiss the indictments. As the state court
summed it up, “this is a lawful settlement conducted
under lawful procedure, under the inherent authority
of the attorney general, over which this Court has no
authority to . . . review or to criticize.” Far from
declaring the plaintiffs’ convictions invalid, the state
court’s ruling was merely the ministerial recognition
of agreements between the plaintiffs and the state.
Because the plaintiffs’ convictions were not
“declared invalid by a state tribunal authorized to
make such determination,” nor reversed on direct
appeal, expunged by executive order, or called into
question by a federal court’s issuance of a writ of
habeas corpus, Heck, 512 U.S. at 486–87, 114 S.Ct.
2364, the plaintiffs are unable to show that their
criminal proceedings were terminated in their favor.
even though the release[s]” are unenforceable. Because the dismissal and vacatur are based on the stipulation, the continued
existence of the stipulation is vital to the plaintiffs’ claims.
Alternatively, the majority argues that the stipulation that
plaintiffs’ convictions were valid does not mean that plaintiffs
agreed their convictions are currently valid, because the parties
also stipulated that “there [was] sufficient new evidence of
material facts that a new trial could be ordered under AS
12.72.010(4).” Maj. at 1203–04. This is a red herring. As the
majority acknowledges, the only relevant issue for Heck purposes
is whether the plaintiffs’ convictions were “declared invalid by a
state tribunal authorized to make such determination.” Maj. at
1198. The state court did not do so here, and the parties’
agreement that the convictions could be vacated for a new trial is
merely a vacatur by agreement.

39a
They are therefore barred from using a civil action
to establish they were wrongly convicted. Thus, the
plaintiffs’ claim for damages stemming from their
allegedly wrongful convictions are “not cognizable
under § 1983.” Id. at 487, 114 S.Ct. 2364. Heck’s clear
holding resolves this appeal.
C
The majority raises two arguments to support its
assertion that a conviction that is vacated by
settlement is the same as a conviction that is “declared
invalid by a state tribunal,” 512 U.S. at 487, 114 S.Ct.
2364, and therefore qualifies as a favorable termination for Heck purposes, Maj. at 1198–1201. Neither
has merit.
First, the majority asserts that there is no difference
between vacatur of a conviction by settlement and a
declaration that a conviction is invalid because a
dictionary defines “vacate” to mean “invalidate.” Maj.
at 1198–99. But this theory is contrary to Heck. Heck
refers to convictions that are “declared invalid by a
state tribunal authorized to make such determination,” 512 U.S. at 487, 114 S.Ct. 2364, and a vacatur
by agreement of the parties does not constitute a state
court’s declaration that the conviction is invalid. While
the word “vacate” could mean “invalidate” in certain
contexts, it does not carry that meaning in this
context. “In law as in life . . . the same words, placed
in different contexts, sometimes mean different
things.” Yates v. United States, 574 U.S. 528, 135 S.
Ct. 1074, 1082, 191 L.Ed.2d 64 (2015). Accordingly,
there is no fair way to read Heck’s reference to a
conviction or sentence that is “declared invalid by a
state tribunal authorized to make such determination,” 512 U.S. at 487, 114 S.Ct. 2364, to mean a

40a
conviction or sentence that is vacated pursuant to a
settlement agreement.
Second, the majority contends that two Ninth Circuit cases support the position that vacatur by
settlement is the same as a declaration of invalidity.
See Rosales-Martinez v. Palmer, 753 F.3d 890 (9th Cir.
2014); Taylor v. Cty. of Pima, 913 F.3d 930 (9th Cir.
2019). But the majority’s reliance is misplaced because
neither holds that a vacatur by settlement qualifies as
a favorable termination under Heck.
Rosales-Martinez v. Palmer, 753 F.3d 890 (9th Cir.
2014), does not help the majority because instead of
addressing whether a vacatur by settlement constituted a favorable termination, we remanded so the
district court could address the viability of the
plaintiff’s complaint in the first instance.
Rosales-Martinez considered a plaintiff’s § 1983
complaint, which alleged that the state court had
granted his state habeas petition and ordered his
release from prison. Id. at 892. On appeal, the government filed a last-minute motion for judicial notice of
several documents showing that this was incorrect; in
fact, the parties had agreed to vacate the plaintiff’s
conviction on cumulative error grounds, and in return,
the plaintiff agreed to plead guilty to one offense. Id.
at 893. We took judicial notice of the documents
proffered by the government, and noted the complexity
they added to the case. See id. at 894–95. After considering the potential impact of these documents, we
ultimately concluded that “[t]he viability and scope” of
the plaintiff’s “§ 1983 claim, in relation to Heck v.
Humphrey . . . should be evaluated by the district
judge on remand.” Id. at 899. We explained that “[a]
court of appeals should not rule on the significance of
[the plaintiff’s] plea in the absence of a complete record

41a
and the comments of both sides, plaintiff and defendants, and without the benefit of the district court’s
analysis.” Id.
Contrary to the majority, our decision in RosalesMartinez to reverse the district court was not based
on the finding that Heck permits a § 1983 action
whenever a conviction has been vacated pursuant to a
settlement agreement. Maj. at 1200. Instead, RosalesMartinez held only that the district court erred in
dismissing the plaintiff’s claims as untimely, because
the claims—to the extent they were viable at all—
could not have accrued until the Nevada court vacated
the underlying convictions. 753 F.3d at 896. Because
we refrained from resolving the question whether the
plaintiff’s claims were viable, the district court, on
remand, felt obliged to refer the case to a pro-bono
program “for the purpose of identifying counsel to
assist Plaintiff with addressing the threshold question
of whether his § 1983 claims are barred under Heck v.
Humphrey.” Martinez v. Palmer, No. 3:10-cv-00748MMD-VPC, 2015 WL 5554147, at *5 (D. Nev. Sep. 21,
2015). Given our failure to rule on the viability of
plaintiff’s § 1983 claims, the majority errs in relying
on Rosales-Martinez for any authoritative ruling on
this issue.
Nor does Taylor v. County of Pima, 913 F.3d 930 (9th
Cir. 2019), support the majority’s position, because
that case ruled on an entirely different issue. In
Taylor, a plaintiff who had been convicted of 28 counts
of felony murder for starting a fire at a Tucson hotel
brought a state post-conviction petition, raising a new
theory based on an affidavit from an expert: the hotel
fire was not caused by arson. Id. at 932. In light of
this new evidence, the government and the plaintiff
entered an agreement to vacate the original conviction

42a
and replace it with a new conviction, and the state
court resentenced the plaintiff to time served. Id. The
plaintiff then brought a § 1983 action against the
government based on alleged unconstitutional practices in securing the original conviction. Id.
We concluded that because all of the time that
plaintiff served in prison was supported by a
valid replacement conviction, he could not recover
incarceration-related damages. Id. at 935. Although
Taylor stated in passing that a plaintiff in a § 1983
action could challenge a conviction that had been
“vacated by [a] state court,” this statement was not
necessary to its holding, because the resolution of the
case was based on the determination that the plaintiff’s valid replacement conviction barred his § 1983
claim. Id.4 Accordingly, Taylor offered no reasoning to
support its offhand comment, and it is inconsistent
with Heck; such statements “made in passing, without
analysis, are not binding precedent.” In re Magnacom
Wireless, LLC, 503 F.3d 984, 993–94 (9th Cir. 2007).5

4

Although the majority refers to “Taylor’s understanding that
a vacated conviction was ‘declared invalid’ under Heck,” Maj. at
1199 (emphasis added), the majority cannot—and therefore does
not—point to any statement in Taylor to that effect; indeed, the
words “declared invalid” never even appear in the opinion.
5

The majority argues that Taylor’s comment that Heck does
not apply when a conviction is “vacated by a state court” was not
made in passing, because we later said that it was “[c]ritica[l]”
that the time Taylor served in prison was supported by a new
conviction. Maj. at 1199. Far from supporting the majority’s
position, this fact undermines it. It was “[c]ritica[l]” that a new
conviction supported Taylor’s entire period of incarceration
because, at that point, it made no difference that Taylor’s earlier
conviction was “declared invalid”: “even if Taylor proves constitutional violations concerning the 1972 conviction, he cannot
establish that the 1972 conviction caused any incarceration-

43a
In sum, the plaintiffs’ convictions were not “declared
invalid by a state tribunal.” Heck, 512 U.S. at 487,
114 S.Ct. 2364. Rather, the convictions were vacated
pursuant to settlement agreements, such that the
“criminal judgment[s]” are still “outstanding,” precluding the plaintiffs’ claims for relief. Id. at 486–87,
114 S.Ct. 2364. Neither Rosales Martinez nor Taylor
are to the contrary. Therefore, the plaintiffs cannot
make the necessary showing to bring their § 1983
malicious prosecution action.
D
Although the plaintiffs fail to show that their
vacated convictions were favorably terminated in one
of the four methods specified by Heck, the majority
suggests that the plaintiffs can sidestep Heck to bring
their § 1983 action.
First, according to the majority, Heck does not apply
to a vacated conviction because the conviction is no
longer “outstanding.” 512 U.S. at 486–87, 114 S.Ct.
2364; Maj. at 1198. To support this theory, the
majority points to Heck’s statement that “if the district
court determines that the plaintiff’s action, even if
successful, will not demonstrate the invalidity of any
outstanding criminal judgment against the plaintiff,
the action should be allowed to proceed, in the absence
of some other bar to the suit.” 512 U.S. at 487, 114
S.Ct. 2364; Maj. at 1198. According to the majority,
this means that if a criminal judgment is no longer
outstanding, i.e., it has been discharged or satisfied in
related damages.” Id. at 935. Thus, the assumption that Taylor’s
earlier conviction was “declared invalid” was “merely a prelude
to another legal issue [i.e., the effect of Taylor’s new conviction]
that command[ed] the panel’s full attention.” United States v.
Johnson, 256 F.3d 895, 915 (9th Cir. 2001).

44a
some way, the criminal defendants may bring a § 1983
action without showing that the judgment was invalidated in one of the four ways identified in Heck. See
Maj. at 1198.
On its face, this conclusion is contrary to Heck. First,
Heck precludes plaintiffs from bringing a § 1983 action
unless they have shown that their conviction was
invalidated by one of the four specific means. 512 U.S.
at 486–87, 114 S.Ct. 2364. The majority, by contrast,
allows plaintiffs to bring a § 1983 action if their
conviction was discharged or satisfied by any means.6
Second, Heck explains that one purpose of the
favorable-termination rule is to avoid the risk that a
criminal conviction could be deemed valid in the
criminal context and invalid in the civil context. See
id. at 484–85, 114 S.Ct. 2364. Under the majority’s
rule, this exact scenario could arise. If a conviction
merely needs to be discharged or satisfied by some
means, then criminal defendants who served their
sentences could subsequently bring § 1983 actions to
establish that they had been wrongfully convicted.
And here the plaintiffs are attempting to invalidate
their criminal judgments in a civil proceeding on the
ground that they were “unfairly tried” and “wrongfully
convicted,” even though their criminal judgments were
never invalidated in a criminal proceeding.

6

The majority plays word games by claiming that a vacated
conviction, but not a conviction that has been satisfied by service
of the sentence, can be the basis for a § 1983 malicious prosecution action. Maj. at 1203 & n.14. No binding precedent forecloses
a court from concluding that a defendant who has fully served a
sentence has satisfied or discharged the conviction so that it is
no longer “outstanding” or “extant”; like a vacated conviction, a
satisfied conviction is a historical fact but not a current condition.

45a
Of course, Heck did not hold that plaintiffs could use
civil actions to challenge convictions that had been
discharged by any means. Read in context, it is clear
that Heck’s reference to “outstanding criminal judgments” is a reference to judgments that have not been
invalidated by one of the four methods of favorable
termination listed in Heck. Id. at 487, 114 S.Ct. 2364.
This common-sense reading is supported by the
Court’s subsequent use of the phrase “outstanding
criminal judgment” as a synonym for a judgment not
invalidated by one of these four means: “[T]he Heck
rule comes into play only when there exists a
conviction or sentence that has not been . . . invalidated, that is to say, an outstanding criminal judgment.” McDonough, 139 S. Ct. at 2160 (internal
quotation marks omitted) (quoting Wallace v. Kato,
549 U.S. 384, 393, 127 S.Ct. 1091, 166 L.Ed.2d 973
(2007)).7 Because the majority’s conclusion that a
plaintiff can bring a § 1983 malicious prosecution
action so long as the underlying criminal judgment
was discharged by any means is contrary to Heck, the
majority’s interpretation must be rejected.
Second, by claiming that vacatur by settlement
qualifies as a favorable termination, even though it is
not on Heck’s list of four qualifying methods of
termination, the majority implicitly holds that vacatur
by settlement is a fifth method of favorable termina7

The majority implies that it can ignore this definition of
“outstanding criminal judgment,” Maj. at 1201 n.10, because the
Supreme Court has stated that, in light of Heck, the statute of
limitations for bringing a § 1983 claim does not accrue “until the
setting aside of an extant criminal conviction,” Wallace, 549 U.S.
at 393, 127 S.Ct. 1091. But the context makes clear that this
statement merely echoes Heck’s rule that a plaintiff cannot bring
a § 1983 action until a conviction has been favorably terminated
in one of the four ways listed in Heck.

46a
tion. Maj. at 1200–01. In other words, the majority
asserts that a plaintiff can bring a § 1983 malicious
prosecution claim to “demonstrate the invalidity” of a
criminal judgment that has been vacated by agreement of the parties—even if the underlying conviction
has not been reversed, declared invalid by a state
court, expunged by executive action, or called into
question by a grant of habeas corpus. 512 U.S. at 486–
87, 114 S.Ct. 2364. This approach also fails.
As an initial matter, Heck makes clear that plaintiffs “must” show that their convictions were terminated in one of four specific ways. 512 U.S. at 486–87,
114 S.Ct. 2364. Vacatur by settlement is not on the
list, and the list is exclusive: Heck does not permit
other, unidentified ways of satisfying the favorabletermination requirement. See id. Thus, any attempt to
recognize additional means of favorable termination is
contrary to Supreme Court precedent. See id.
Moreover, recognizing vacatur by settlement as
another method of favorable termination is contrary to
Heck’s reliance on the common-law cause of action for
malicious prosecution, which was the Court’s “starting
point” for determining the viability of a § 1983 claim.
512 U.S. at 483–84 & n.4, 114 S.Ct. 2364 (reiterating
its “reliance on malicious prosecution’s favorable termination requirement as illustrative of the commonlaw principle barring tort plaintiffs from mounting
collateral attacks on their outstanding criminal convictions”). The common law did not recognize vacatur
by settlement as a method of favorable termination:
For over a century, courts have recognized that a claim
for malicious prosecution does not lie if the prosecution

47a
was abandoned based on a settlement or compromise.8
The treatises are in accord.9 Thus, if a criminal proceeding “is withdrawn or the prosecution abandoned
pursuant to an agreement of compromise with the
8

See, e.g., Erie R. Co. v. Reigherd, 166 F. 247, 250 (6th Cir.
1909) (“A termination of a prosecution by nol. pros. by consent of
the defendant, or by a compromise, is such a termination as to
leave no foundation for denying that there was probable cause.”);
Woodson v. McLaughlin, 153 Ark. 151, 239 S.W. 735, 736 (1922)
(“The testimony being undisputed that a compromise was
effected as a result of which the prosecution out of which this
litigation arises, was settled, a verdict was properly directed in
defendants’ favor.”); Bell Lumber Co. v. Graham, 74 Colo. 149,
219 P. 777, 778 (1923) (“It is well settled that a compromise
voluntarily made, or a settlement by the consent of the accused,
defeats a recovery in an action for malicious prosecution based
upon a criminal proceeding.”); Leonard v. George, 178 F.2d 312,
313 (4th Cir. 1949) (“Notwithstanding the protests and declarations of plaintiff made at the time, we think that he is unquestionably preluded by the settlement from suing for malicious
prosecution with respect to the case thus disposed of.”); Ferreira
v. Gray, Cary, Ware & Freidenrich, 87 Cal. App. 4th 409, 413, 104
Cal.Rptr.2d 683 (2001) (“[Plaintiff] may have received a favorable
determination at one point in the proceeding . . . [but] the
litigation terminated as a result of a negotiated settlement in
which both sides gave up something of value to resolve the
matter.”).
9

See, e.g., 8 Stuart M. Speiser et al., American Law of Torts
§ 28:5 n.2 (2019) (“[T]ermination resulting from negotiation,
compromise, settlement, or agreement is not considered a
favorable termination.”); W. Page Keeton et al., Prosser & Keeton
on Torts § 119, at 875 (5th ed. 1984) (“[W]here charges are
withdrawn or the prosecution is terminated . . . by reason of a
compromise into which [the accused] entered voluntarily, there is
no sufficient termination in favor of the accused.” (footnotes
omitted)); 54 C.J.S. Malicious Prosecution § 67 (“Where both sides
give up anything of value . . . to end litigation, a party cannot
later claim he or she received a favorable termination . . . to
establish malicious prosecution.”).

48a
accused,” the resolution “is not a sufficient termination to meet the requirements of a cause of action for
malicious prosecution.” Restatement (Second) of Torts
§ 660 (1977). “Although the accused by his acceptance
of a compromise does not admit his guilt, the fact of
the compromise indicates that the question of his guilt
or innocence is left open.” Id. § 660 cmt. c. As such, by
entering into a settlement agreement and “[h]aving
bought peace,” an accused “may not thereafter assert
that the proceedings have terminated in his favor.”
Id.10 Accordingly, vacatur by settlement is not—and
never was—recognized as a favorable termination at
common law, so the majority’s attempt to recognize it
as a fifth means of favorable termination under Heck
squarely contradicts Heck’s reliance on the “common
law of torts.” 512 U.S. at 483, 114 S.Ct. 2364.11

10

The majority points out that some courts construing the four
means of favorable termination in Heck do not require a showing
that the termination was inconsistent with guilt. Maj. at 1201–
03; see, e.g., Pardue v. City of Saraland, Ala., No. CV 99-0799-CGM, 2004 WL 7338484, at *6 (S.D. Ala. Aug. 11, 2004) (rejecting
argument that Heck requires a “final determination in favor of
the accused”). Other courts require such a showing. See DiBlasio
v. City of New York, 102 F.3d 654, 658 (2d Cir. 1996) (issuance of
a writ of habeas corpus was not an “indication of innocence,” and
thus did not qualify as a favorable termination under Heck,
because plaintiff “conceded both the possession and sale of the
cocaine”). But this subsequent elaboration of Heck has no bearing
on the question whether Heck contemplated that vacatur by
settlement—unanimously rejected as a favorable termination at
common law—qualifies as a favorable termination for purposes
of a § 1983 action.
11

The majority mischaracterizes the dissent by arguing that
the dissent would hold that a § 1983 plaintiff must be able to
satisfy the common law’s favorable-termination rule. Maj. at
1202–03. The dissent would merely hold that the plaintiffs’ convictions were not “declared invalid by a state tribunal authorized

49a
In sum, the majority has no authority to recognize a
new means of favorable termination; Heck’s list is
exclusive. See id. at 486–87, 114 S.Ct. 2364. And even
if the majority could recognize new means of favorable
termination, vacatur by settlement is not a favorable
termination at common law, so there is no basis for
deeming it a method of favorable termination here.
* * *
Simply stated, the plaintiffs did not have their prior
convictions “declared invalid by a state tribunal
authorized to make such determination,” Heck, 512
U.S. at 487, 114 S.Ct. 2364, but instead reached an
agreement with the state to vacate their convictions.
Regardless of the plaintiffs’ reasons for doing so, they
cannot now claim that the prior convictions were
terminated in a manner that provides a basis for
bringing § 1983 malicious prosecution claims. In holding otherwise, the majority casts aside the favorabletermination rule articulated by Heck v. Humphrey and
thus is inconsistent with Supreme Court precedent.
Accordingly, I dissent.

to make such determination,” as required by Heck, and so the
plaintiffs’ § 1983 claims are “not cognizable.” 512 U.S. at 487, 114
S.Ct. 2364; see supra Part II.B. The dissent discusses the common
law only to show that the majority has no principled basis for
recognizing vacatur by settlement as a fifth method of favorable
termination under Heck.

50a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA
[Filed October 22, 2018]
————
No. 4:17-cv-0034-HRH
[Consolidated with No. 4:17-cv-0035-HRH]
————
MARVIN ROBERTS,
Plaintiff,

vs.

CITY OF FAIRBANKS, JAMES GEIER, CLIFFORD
AARON RING, CHRIS NOLAN, DAVE KENDRICK,
DOE OFFICERS 1-10, and DOE SUPERVISORS 1-10,
Defendants.
EUGENE VENT, KEVIN PEASE, and GEORGE FRESE,
Plaintiffs,

vs.

CITY OF FAIRBANKS, JAMES GEIER, CLIFFORD
AARON RING, CHRIS NOLAN, DAVE KENDRICK,
DOE OFFICERS 1-10, and DOE SUPERVISORS 1-10,
Defendants.
————
ORDER
————
Motion to Dismiss
Defendants move to dismiss plaintiffs’ second
amended and consolidated complaint.1 This motion is
1

Docket No. 41.

51a
opposed. Oral argument was requested and has been
heard.
2

Background
Plaintiffs are Marvin Roberts, George Frese, Kevin
Pease, and Eugene Vent. Defendants are the City of
Fairbanks, James Geier, Clifford Aaron Ring, Chris
Nolan, and Dave Kendrick.
Plaintiffs were convicted of the October 11, 1997
murder of John Hartman3 and then sentenced to
prison sentences ranging from 30 years to 77 years.4
Plaintiffs allege that their convictions were the result
of manufactured evidence and false statements.5
In September 2013, plaintiffs filed petitions for postconviction relief (“PCR”) in the Alaska Superior Court,
“arguing that newfound testimonial and physical evidence could prove their factual innocence.”6 A fiveweek evidentiary hearing on plaintiffs’ PCR petitions
was held in the fall of 2015.7 Plaintiffs allege that
“[t]his evidentiary hearing established that [they]
were actually innocent of Hartman’s murder” and that
they “squarely placed their factual innocence at issue
during the PCR hearing.”8 Plaintiffs allege that the
evidence presented at the hearing included testimony
from William Holmes “that he and his friends were
2

Docket No. 46.

3

Second Amended and Consolidated Complaint at 2, ¶ 1; 22,
¶ 92, Docket No. 40.
4

Id. at 22, ¶ 92.

5

Id. at 3, ¶ 7; 22, ¶ 92.

6

Id. at 25, ¶ 106.

7

Id. at 26, ¶ 109.

8

Id. at 27, ¶¶ 110-11.

52a
Hartman’s true killers,” testimony from “at least
eleven witnesses who corroborated his account[,]” and
testimony that “the Alaska State Troopers had been
able to corroborate key aspects of Holmes’s confession
and had been unable to locate any evidence placing
[p]laintiffs at the scene of the Hartman homicide. . . .”9
Plaintiffs allege that “[a]t the conclusion of the PCR
hearing in November 2015, the presiding judge told
the parties multiple times that it would take him six
to eight months to reach a decision.”10 They also allege
that “[m]embers of the prosecution . . . stated publically that if the trial court concluded [that] the convictions should be vacated and ordered a new trial, the
State would appeal that decision through to the
Alaska Supreme Court.”11 Plaintiffs allege that “[t]his
signaled an official willingness to delay further resolution of the case and release of all the [p]laintiffs, other
than Roberts who had by this time served his sentence
and had been released on probation.”12
Plaintiffs allege that “[j]ust before Christmas, the
prosecutors offered [them] a devil’s bargain: the prosecution would consent to vacating the convictions and
dismissing the charges but only if [they] would agree
not to sue to vindicate their civil rights.”13 Plaintiffs
allege that State prosecutors were attempting “to
avert probable judicial findings that [p]laintiffs were
innocent and/or that the convictions were marred by

9

Id. at 26-27, ¶¶ 109a, 109f.

10

Id. at 28, ¶ 116.

11

Id. at 29, ¶ 121.

12

Id.

13

Id. at 28-29, ¶ 117.

53a
official misconduct.” Plaintiffs further allege that
State prosecutors were attempting to “forestall
[p]laintiffs’ civil action, through the waiver of claims,
that likely would expose FPD [Fairbanks Police
Department] officers and their colleagues in the
Fairbank District Attorney Office to unfavorable litigation and public scrutiny into police and prosecutorial misconduct. . . .”15
14

Plaintiffs took the deal that was offered and entered
into settlement agreements with the State of Alaska
and the City of Fairbanks.16 The settlement agreements provided that plaintiffs would stipulate to the
withdrawal of their PCR petitions and that the parties
would stipulate to a court order vacating the judgments of conviction.17 The State agreed to file dismissals of the indictments and “not to seek a retrial” but
reserved the right to seek a retrial if “substantial new
evidence of guilt is discovered[.]”18
The settlement agreements further provided that
“[t]he parties have not reached agreement as to [plaintiffs’] actual guilt or innocence.”19
14

Id. at 37, ¶ 167.

15

Id. at 37, ¶ 168.

16

Exhibits 1-4, Defendants’ Request for Judicial Notice,
Docket No. 43. The court has taken judicial notice of these
exhibits and thus may consider them without converting the
instant Rule12(b)(6) motion into a motion for summary judgment.
Intri-Plex Technologies, Inc. v. Crest Group, Inc., 499 F.3d 1048,
1052 (9th Cir. 2007).
17

Settlement Agreement and Mutual Release of All Claims at
1-2, § IA-B, Exhibits 1-4, Defendants’ Request for Judicial Notice,
Docket No. 43.
18

Id. at 2-3, § 1B, § II.

19

Id. at 6, § V.

54a
In the settlement agreements, plaintiffs
release[d] and forever discharge[d] . . . the
City of Fairbanks and its departments,
divisions, agencies, agents, representatives,
directors, past and current employees, attorneys, contractors, retained or non-retained
experts, witnesses, predecessors or successors
in interest, and assigns . . . of and from any
and all past, present, or future actions,
causes of action, controversies, suits, claims,
demands, liabilities, complaints or grievances
of every kind and nature, whether mature or
to mature in the future, and whether known
or unknown, for or by reason of any matter,
thing, claim, or allegation arising out of or in
any way related to the arrest, investigation,
prosecution, appeal, legal representation, or
incarceration associated with, connected to,
or related in any way to any legal matters
or actions referenced above, or any other
matters arising prior to the date of this
Settlement Agreement and Mutual Release of
All Claims.[20]
More specifically, plaintiffs released
any and all claims . . . arising out of the
investigation into the death of Jonathan
Hartman and the subsequent prosecution
and incarceration of [plaintiffs], . . . including
but not limited to claims for malicious prosecution, wrongful imprisonment, prosecutorial
misconduct, legal malpractice, [and] violation

20

Id. at 3-4, § III.

55a
or deprivation of rights civil or constitutional[.21]
Plaintiffs also “release[d] any right [they] may
now or hereafter have to reform, rescind, modify or
set aside th[e] Settlement Agreement[s] and Mutual
Release[s] of All Claims through mutual or unilateral
mistake or otherwise.”22
Plaintiffs
declare[d] that the terms of th[e] Settlement
Agreement[s] and Mutual Release[s] of All
Claims have been carefully read and are fully
understood and are voluntarily accepted [f]or
the purpose of making a full and final
compromise of any and all claims, disputed or
otherwise, for and on account of the matters
described above.[23]
The settlement agreements also provided that “[i]t
is mutually understood by the [p]arties that the purpose of th[ese] Agreement[s] is that there be no further
litigation by [plaintiffs] or others on [their] behalf
related to this matter.”24 The settlement agreements
also noted that the agreements had “been drafted by
the [p]arties through the efforts of their respective
legal counsel” and that “[t]he [p]arties warrant that
the terms of th[e] Agreement[s] have been carefully
reviewed and that each [p]arty understands [their]
contents and has been advised as to the legal effect of
th[e] Agreement[s] by legal counsel obtained by that

21

Id. at 4, § III.

22

Id. at 5, § III.

23

Id. at 6, § III.

24

Id.

56a
[p]arty.” Each of plaintiffs’ lawyers represented that
they had “carefully and fully explained the terms, provisions and effects of” the agreements and that their
clients represented that they understood the terms of
the agreements and the significance of the terms.26
25

The terms of the stipulation that was contemplated
in the settlement agreements were presented to the
Superior Court on December 11, 2015. Plaintiffs “stipulate[d] and agree[d] that the original jury verdicts
and judgments of conviction were properly and validly
entered based on proof beyond a reasonable doubt[,]”
and the parties “stipulate[d] and agree[d] that th[e
Superior c]ourt need not make findings of innocence
under AS 12.72.020.”27 In paragraph 5 of the stipulation, “[t]he parties stipulate[d] and agree[d] that [the
Superior c]ourt may immediately enter Orders vacating the Judgments of Conviction, Restitution Orders,
and Rule 39 judgments for attorney fees in each”
underlying criminal case “and award[] each Petitioner
the relief of a new trial for each of the charges for
which Petitioners were convicted.”28 The stipulation
provided that “[u]pon entry of the Orders in paragraph
5, Petitioners withdraw their claims of prosecutorial
misconduct asserted” in their PCR petitions.29 The
stipulation also provided that “[u]pon entry of the
25
26

Id. at 6, § IV.
Id. at 9.

27

Exhibit 5 at 2, ¶¶ 2, 4, Defendants’ Request for Judicial
Notice, Docket No. 43. The court has taken judicial notice of this
exhibit and thus may consider it without converting the instant
Rule12(b)(6) motion into a motion for summary judgment. IntriPlex Technologies, 499 F.3d at 1052.
28

Stipulation at 2, ¶ 5, Exhibit 5, Defendants’ Request for
Judicial Notice, Docket No. 43.
29

Id. at 2, ¶ 6.

57a
Orders in Paragraph 5, . . . the State will not seek
retrial in any of the underlying criminal cases and will
file dismissals pursuant to Criminal Rule 43(a) of the
indictments. . . .”30 Finally, “the parties stipulate[d]
and agree[d] that upon the filing of the . . . dismissals,
[the Superior c]ourt shall order the immediate and
unconditional release of Petitioners from custody and
supervision. . . .”31
On December 17, 2015, the Superior Court held a
hearing to address the stipulation. At the hearing, the
Superior Court judge read the stipulation into the record and declared that “[t]he orders vacating the judgment of conviction and commitment and probation and
restitution will enter” and that he would “sign them
off the record.”32
The State dismissed the charges against plaintiffs
on December 17, 2015.33 The orders vacating plaintiffs’
convictions and sentences were also signed on December 17, 2015 2015.34 And, Vent, Pease, and Frese were
released from prison on December 17, 2015.
30

Id. at 3, ¶ 7.

31

Id. at 3, ¶ 8.

32

Transcript of Settlement on the Record at 4:7-6:10, 12:2513:4, Exhibit 10, Defendants’ Request for Judicial Notice, Docket
No. 43. The court has taken judicial notice of this exhibit and
thus may consider it without converting the instant Rule12(b)(6)
motion into a motion for summary judgment. Intri-Plex Technologies, 499 F.3d at 1052.
33

Exhibits 1-4, Plaintiffs’ Request for Judicial Notice, Docket
No. 47. The court has taken judicial notice of this exhibit and thus
may consider it without converting the instant Rule12(b)(6)
motion into a motion for summary judgment. Intri-Plex Technologies, 499 F.3d at 1052.
34

Exhibits 11-14, Declaration of Peter A. Scully, which is
appended to Response to Court’s Order re: Requests for Judicial

58a
On May 14, 2018, plaintiffs filed their second
amended and consolidated complaint in this matter.
In this complaint, they assert twelve causes of action.
In the first cause of action, plaintiffs assert § 1983 deprivation of liberty claims. In the second cause of action,
plaintiffs assert § 1983 claims for malicious prosecution. In the third cause of action, plaintiffs assert
§ 1983 Brady claims. In the fourth cause of action,
plaintiffs assert § 1983 supervisor liability claims. In
the fifth cause of action, plaintiffs assert § 1983 civil
rights conspiracy claims. In the sixth cause of action,
plaintiffs assert § 1985(3) conspiracy claims. In the
seventh cause of action, plaintiffs assert Monell claims
under § 1983 against the City of Fairbanks. In the
eighth cause of action, plaintiffs assert § 1983 First
Amendment right of access claims. In the ninth cause
of action, Vent and Frese assert Fifth Amendment
violation claims.35 In the tenth cause of action, plaintiffs assert spoliation of evidence claims. In the eleventh cause of action, plaintiffs assert negligence
claims. In the twelfth cause of action, plaintiffs assert
intentional infliction of emotional distress claims.

Notice, Docket No. 58. The court takes judicial notice of these
exhibits and thus may consider them without converting the
instant Rule12(b)(6) motion into a motion for summary judgment.
Intri-Plex Technologies, 499 F.3d at 1052.
35

Although these claims are not expressly pled as § 1983
claims, the Ninth Circuit “has held that a litigant complaining of
a violation of a constitutional right does not have a direct cause
of action under the United States Constitution but must utilize
42 U.S.C. § 1983.” Arpin v. Santa Clara Valley Transp. Agency,
261 F.3d 912, 925 (9th Cir. 2001); see also, Azul-Pacifico, Inc. v.
City of Los Angeles, 973 F.2d 704, 705 (9th Cir. 1992) (“a litigant
complaining of a violation of a constitutional right must utilize 42
U.S.C. § 1983”).

59a
Pursuant to Rule 12(b)(6), Federal Rules of Civil
Procedure, defendants now move to dismiss plaintiffs’
claims for failure to state plausible claims. In the
alternative, pursuant to Rule 12(b)(7), defendants
move to dismiss plaintiffs’ claims for failure to join the
State of Alaska as an indispensable party.
Discussion
“‘To survive a [Rule 12(b)(6)] motion to dismiss, a
complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is plausible on its face.’” Zixiang Li v. Kerry, 710 F.3d 995,
999 (9th Cir. 2013) (quoting Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009)). “A claim is facially plausible ‘when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.’” Id.
(quoting Iqbal, 556 U.S. at 678). “The plausibility
standard requires more than the sheer possibility or
conceivability that a defendant has acted unlawfully.”
Id. “‘Where a complaint pleads facts that are merely
consistent with a defendant’s liability, it stops short of
the line between possibility and plausibility of entitlement to relief.’” Id. (quoting Iqbal, 556 U.S. at 678).
“[T]he complaint must provide ‘more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.’” In re Rigel Pharmaceuticals, Inc. Securities Litig., 697 F.3d 869, 875 (9th
Cir. 2012) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555 (2007)). “In evaluating a Rule 12(b)(6)
motion, the court accepts the complaint’s well-pleaded
factual allegations as true and draws all reasonable
inferences in the light most favorable to the plaintiff.”
Adams v. U.S. Forest Srvc., 671 F.3d 1138, 1142-43
(9th Cir. 2012). “However, the trial court does not have
to accept as true conclusory allegations in a complaint

60a
or legal claims asserted in the form of factual allegations.” In re Tracht Gut, LLC, 836 F.3d 1146, 1150 (9th
Cir. 2016).
As an initial matter, plaintiffs “do not oppose” the
dismissal of their negligence and negligent infliction of
emotional distress claims.36 Defendants’ motion to dismiss these two claims is granted. Plaintiffs’ negligence
and negligent infliction of emotional distress claims
are dismissed with prejudice.
Plaintiffs do oppose the dismissal of their other ten
claims. Defendants first argue that these claims are
subject to dismissal because they are barred by Heck
v. Humphrey, 512 U.S. 477 (1994).
The question before the Court in Heck was “whether
a state prisoner may challenge the constitutionality of
his conviction in a suit for damages under 42 U.S.C.
§ 1983.” Id. at 478. Heck had been convicted of voluntary manslaughter in state court and was serving a fifteen-year sentence. Id. He filed a § 1983 action in federal court, alleging that the state prosecutor and police
investigator had conducted an unlawful investigation,
destroyed evidence, and used illegal and unlawful evidence at his trial. Id. at 479. Heck sought damages; he
did not seek to be released from custody. Id.
The Seventh Circuit had held that if a prisoner is
challenging the legality of his conviction, “the suit is
classified as an application for habeas corpus and the
plaintiff must exhaust his state remedies.” Id. at 480
(citation omitted). But, the Court found that “[t]he
issue with respect to monetary damages challenging

36

Plaintiffs’ Memorandum of Law in Opposition to Defendants’ Motion to Dismiss at 25, n.11, Docket No. 46.

61a
conviction is not . . . exhaustion; but rather . . . whether
the claim is cognizable under § 1983 at all.” Id. at 483.
The Court then compared Heck’s § 1983 claims to
“[t]he common-law cause of action for malicious prosecution” and observed that for such a claim “[o]ne element that must be alleged and proved . . . is termination of the prior criminal proceeding in favor of the
accused.” Id. at 484. The Court found that “the hoary
principle that civil tort actions are not appropriate
vehicles for challenging the validity of outstanding
criminal judgment applies to § 1983 damages actions
that necessarily require the plaintiff to prove the
unlawfulness of his conviction or confinement[.]” Id. at
486. Thus, the Court held
that, in order to recover damages for allegedly
unconstitutional conviction or imprisonment,
or for other harm caused by actions whose
unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must
prove that the conviction or sentence has been
reversed on direct appeal, expunged by executive order, declared invalid by a state tribunal authorized to make such determination,
or called into question by a federal court’s
issuance of a writ of habeas corpus, 28 U.S.C.
§ 2254.
Id. at 486-87. “A claim for damages bearing that
relationship to a conviction or sentence that has not
been so invalidated is not cognizable under § 1983.” Id.
at 487. The Court explained that
when a state prisoner seeks damages in a
§ 1983 suit, the district court must consider
whether a judgment in favor of the plaintiff
would necessarily imply the invalidity of his

62a
conviction or sentence; if it would, the complaint must be dismissed unless the plaintiff
can demonstrate that the conviction or sentence has already been invalidated. But if the
district court determines that the plaintiff’s
action, even if successful, will not demonstrate the invalidity of any outstanding criminal judgment against the plaintiff, the action
should be allowed to proceed, in the absence
of some other bar to the suit.
Id.
Finally, the Court found it unnecessary to consider
a statute of limitations issue that the Seventh Circuit
had addressed. Id. at 489. The Seventh Circuit had
“concluded that a federal doctrine of equitable tolling
would apply to the § 1983 cause of action while state
challenges to the conviction or sentence were being
exhausted.” Id. The Court explained that there was no
statute of limitations problem “[u]nder [its] analysis”
because “a § 1983 cause of action for damages attributable to an unconstitutional conviction or sentence does
not accrue until the conviction or sentence has been
invalidated.” Id. at 489-90.
Thus, “[u]nder Heck v. Humphrey, a state prisoner
cannot recover damages in a § 1983 suit if a judgment
in favor of the plaintiff ‘would necessarily imply the
invalidity of his conviction or sentence . . . unless the
plaintiff can demonstrate that the conviction or sentence has already been invalidated.’” Guerrero v.
Gates, 442 F.3d 697, 703 (9th Cir. 2006) (quoting Heck,
512 U.S. at 487). This rule from Heck is sometimes
referred to as the “favorable termination rule. . . .”
Huftile v. Miccio-Fonseca, 410 F.3d 1136, 1139 (9th
Cir. 2005). It is also sometimes referred to as the “Heck
preclusion doctrine. . . .” Beets v. County of Los Angeles,

63a
669 F.3d 1038, 1042 (9th Cir. 2012). And, it is sometimes simply referred to as the “Heck bar.” Lockett v.
Ericson, 656 F.3d 892, 896 (9th Cir. 2011).
There is also a concomitant principle derived from
Heck that is referred to as the deferred accrual rule.
“[T]he Heck rule for deferred accrual ‘delays what otherwise would be the accrual date of a tort action until
the setting aside of an extant conviction which success
in that tort action would impugn.’” Rosales-Martinez
v. Palmer, 753 F.3d 890, 896 (9th Cir. 2014) (quoting
Wallace v. Kato, 549 U.S. 384, 393 (2007)).
The Heck bar “applies with respect not only to . . .
§ 1983 claim[s] but also to . . . [§] 1985(3) . . . claims.”
McQuillion v. Schwarzenegger, 369 F.3d 1091, 1097
n.4 (9th Cir. 2004) (citation omitted). The Heck bar
applies also to “‘state law claims arising from the same
. . . misconduct’ alleged in § 1983 claims.’” Berger v.
Brandon, Case No. 2:08-cv-01688-GEB-EFB, 2008 WL
5101338, at *1 (E.D. Cal. Dec. 3, 2008) (quoting Susag
v. City of Lake Forest, 94 Cal. App. 4th 1401, 1412-13
(Calif. Ct. App. 2002)). Here, plaintiffs’ spoliation
claim is based on the same conduct alleged in some of
plaintiffs’ § 1983 claims.
In applying the Heck bar, the Supreme Court directs
this court to first “consider whether a judgment in
favor of the plaintiff[s] would necessarily imply the
invalidity of [their] conviction[s] or sentence[s.]” Heck,
512 U.S. at 487. There is no question that a judgment
in plaintiffs’ favor on their § 1983, § 1985 and spoliation claims would necessarily imply the invalidity of
their convictions and sentences. Were plaintiffs to succeed on these claims, they would, in effect, prove their
innocence, which would mean that their convictions
and sentences were invalid.

64a
Plaintiffs however argue that Heck has no application here because “Heck applies only when there is an
extant conviction. . . .” Bradford v. Scherschligt, 803
F.3d 382, 386 (9th Cir. 2015); see also, Wallace, 549
U.S. at 393 (quoting Heck, 512 U.S. at 487) (“the Heck
rule for deferred accrual is called into play only when
there exists ‘a conviction or sentence that has not
been . . . invalidated,’ that is to say, an ‘outstanding
criminal judgment’”). Because their convictions have
been vacated, plaintiffs argue that there are no extant
convictions and thus Heck does not bar their § 1983,
§ 1985, and spoliation claims.
Plaintiffs are misreading Bradford. The issue in
Bradford was “when a Devereaux claim accrues and
starts the running of the limitation period.” Bradford,
803 F.3d at 386. “A Devereaux claim is a claim that the
government violated the plaintiff’s due process rights
by subjecting the plaintiff to criminal charges based on
deliberately-fabricated evidence.” Id.
Bradford had been convicted of burglary and rape in
1996. Id. at 383. “In 2008, after Bradford served his
full ten-year sentence,” his conviction was vacated by
the Washington Court of Appeals, largely because
“newly available DNA testing . . . excluded him as a
contributor of genetic material found at the crime.” Id.
After his first conviction was vacated, Bradford was
retried and acquitted in 2010. Id. Bradford filed his
§ 1983 Devereaux claim in 2013. Id. at 383-84. The district court determined “that the running of the three
year statute of limitations” on this claim “began on the
vacatur of Bradford’s conviction and not the date of his
acquittal[.]” Id. at 384.
On appeal, Bradford argued that his Devereaux
claim would have been barred by Heck if he had “filed
it immediately upon vacatur of his conviction.” Id.

65a
at 386. The Ninth Circuit disagreed. Id. The Ninth
Circuit explained that
Heck established the now well-known rule
that when an otherwise complete and present
§ 1983 cause of action would impugn an
extant conviction, accrual is deferred until
the conviction or sentence has been invalidated. As the Supreme Court made clear in
its decision in Wallace, however, Heck applies
only when there is an extant conviction and is
not implicated merely by the pendency of
charges.
Id. In other words, Heck would not have barred
Bradford’s § 1983 claim had he filed it immediately
after his conviction was vacated because at that point,
his conviction had been vacated by the Washington
Court of Appeals on grounds that suggested that the
conviction was invalid. Bradford’s § 1983 claim, had
he filed it in 2008 after his conviction was vacated,
would not have been barred by Heck because he likely
could have shown that his conviction had been
“declared invalid by a state tribunal authorized to
make such determination[.]” Heck, 512 U.S. at 487.
Wallace also does not help plaintiffs. In Wallace, the
issue before the Court was whether Wallace’s § 1983
claim for damages “for an arrest that violated the
Fourth Amendment” was timely. Wallace, 549 U.S. at
386. Wallace had been arrested, convicted, and sentenced for first-degree murder. Id. Wallace contended
that he had been arrested without probable cause, and
after two rounds of appeals, the state “prosecutors
dropped the charges” against him. Id. at 387. Approximately one year later, Wallace brought a § 1983 false
arrest suit against the City of Chicago and several
Chicago police officers. Id. Wallace argued that his

66a
§ 1983 false arrest claim accrued on the date on which
he was released from custody. Id. at 391. The Court
rejected this argument and instead held that the statute of limitations began to run “when he appeared
before the examining magistrate and was bound over
for trial” because that was when he began to suffer
damages as a result of the false arrest. Id. at 391.
Because Wallace had filed his § 1983 suit more than
two years after he appeared before the examining
magistrate, the Court concluded that his § 1983 suit
was time barred. Id. at 391-92.
The Court rejected Wallace’s “contention that
Heck . . . compels the conclusion that his suit could not
accrue until the State dropped its charges against
him.” Id. at 392. The Court set out the language from
Heck that
“in order to recover damages for allegedly
unconstitutional conviction or imprisonment,
or for other harm caused by actions whose
unlawfulness would render a conviction or
sentence invalid, a § 1983 plaintiff must
prove that the conviction or sentence has been
reversed on direct appeal, expunged by executive order, declared invalid by a state tribunal authorized to make such determination,
or called into question by a federal court’s
issuance of a writ of habeas corpus, 28 U.S.C.
§ 2254. A claim for damages bearing that
relationship to a conviction or sentence that
has not been so invalidated is not cognizable
under § 1983.”
Id. (quoting Heck, 512 U.S. at 486-87). The Court then
stated that “the Heck rule for deferred accrual is called
into play only when there exists ‘a conviction or sentence that has not been . . . invalidated,’ that is to say,

67a
an ‘outstanding criminal judgment.’” Id. at 393 (quoting Heck, 512 U.S. at 487). The Court explained that
the Heck rule for deferred accrual “delays what would
otherwise be the accrual date of a tort action until the
setting aside of an extant conviction which success in
that tort action would impugn.” Id. But, the Court
explained that in Wallace’s case, on the date on which
the statute of limitations on his false arrest § 1983
claim began to run, “there was in existence no criminal
conviction that the cause of action would impugn”
because Wallace had not yet been convicted of
anything. Id.
Wallace has little, if any, application here because it
applies to § 1983 claims for false arrest. Specifically,
the Court held “that the statute of limitations upon a
§ 1983 claim seeking damages for a false arrest in violation of the Fourth Amendment, where the arrest is
followed by criminal proceedings, begins to run at the
time the claimant becomes detained pursuant to legal
process.” Id. at 397. Plaintiffs have not asserted § 1983
false arrest claims. Moreover, Wallace stands for the
proposition that Heck does not bar § 1983 claims if
there is not yet a conviction in existence. That is not
the case here. Plaintiffs were convicted and sentenced
long before they brought their § 1983 claims.
The question here is not so much when did plaintiffs’
§ 1983 claims accrue, which is what was at issue in
both Bradford and Wallace. The question here is
whether plaintiffs’ convictions have been invalidated
for purposes of Heck. If they have been, plaintiffs’
§ 1983, § 1985, and spoliation claims are not barred by
Heck. If they have not been, plaintiffs’ § 1983, § 1985,
and spoliation claims are barred by Heck.
Heck expressly provides that a conviction or sentence has been invalidated if it has “been reversed on

68a
direct appeal, expunged by executive order, declared
invalid by a state tribunal authorized to make such
determination, or called into question by a federal
court’s issuance of a writ of habeas corpus[.]” Heck, 512
U.S. at 487. There is no question that plaintiffs’ convictions and sentences were not reversed on direct
appeal, expunged by executive order, or called into
question by the issuance of a writ of habeas corpus.
Plaintiffs’ only avenue for satisfying Heck is to show
that their convictions have been invalidated by a state
tribunal.
Plaintiffs’ convictions were vacated pursuant to a
settlement agreement. But in that process, their convictions were not declared invalid by the Superior
Court. In fact, the parties’ stipulation expressly provided “that the original jury verdicts and judgments of
conviction were properly and validly entered based on
proof beyond a reasonable doubt.”37 All the Superior
Court did was vacate plaintiffs’ convictions pursuant
to the settlement agreements and the stipulation.
The Superior Court did not declare their convictions
invalid.
Nonetheless, plaintiffs argue that the vacatur of
their convictions and sentences by the Superior Court
pursuant to the settlement agreements is sufficient for
Heck purposes because the charges against them have
been “fully and finally resolved and could no longer
be brought against” them. Bradford, 803 F.3d at
389. But, that is not the requirement laid out in Heck
nor was the Bradford court considering whether
Bradford’s conviction had been invalidated for purposes of Heck. Rather, the court in Bradford was con37

Exhibit 5 at 2, ¶ 2, Defendants’ Request for Judicial Notice,
Docket No. 43.

69a
sidering when Bradford’s § 1983 claim accrued under
the “traditional rules of accrual. . . .” Id. at 386.
Plaintiffs next argue that an order dismissing their
indictments is all that is needed to satisfy Heck because courts have found Heck satisfied when charges
are dismissed by nolle prosequi or by a dismissal
without prejudice. Plaintiffs cite to two cases in
support of this argument.
First, plaintiffs cite to Owens v. Baltimore City
State’s Attorneys Office, 767 F.3d 379 (4th Cir. 2014).
There, the issue before the court was whether Owens’
§ 1983 claims were barred by the statute of limitations. Id. at 388. Owens had been convicted of burglary
and felony murder in 1988, but in 2007, “a state court
granted Owens’s ‘petition to reopen his Post Conviction Proceeding’ and ordered that ‘by agreement of
Counsel and this Honorable Court, . . . Petitioner shall
be granted a new trial’” based on new DNA evidence.
Id. at 387. “On October 15, 2008, the State’s Attorney
entered a nolle prosequi, dropping the charges
against” Owens, and he was released from prison on
that date. Id. On October 12, 2011, Owens brought
§ 1983 claims against the State’s Attorney’s Office and
others. Id. at 388. On appeal, the defendants argued
that Owens’ § 1983 claims accrued on the date on
which the state court vacated his conviction (June
4, 2007). Id. Owens argued that his § 1983 claims
accrued on October 15, 2008, “the date on which
prosecutors filed a nolle prosequi, finally resolving the
proceedings against him,” because it was on that date
that the charges against him were finally resolved.
Id. The court held that Owens’ § 1983 claim accrued
on the date on which the prosecutors filed a nolle
prosequi. Id. at 390. The court rejected the contention
that Heck required a different result, observing that

70a
“the Heck bar to suit was removed as soon as the state
court invalidated Owens’s conviction and granted him
a new trial.” Id. at 391. Thus, the court found that it
was not the filing of the nolle prosequi that removed
the Heck bar, but rather the state court’s invalidation
of Owens’ conviction. Here, no state court has invalidated plaintiffs’ convictions. Rather, the state court
vacated plaintiffs’ convictions pursuant to the settlement agreements, and plaintiffs expressly stipulated
that their judgments of convictions were valid.
Second, plaintiffs cite to Spak v. Phillips, 857 F.3d
458 (2nd Cir. 2017). There, Spak was arrested on June
15, 2010 on charges of tampering with or fabricating
evidence. Id. at 460. “On September 10, 2010, the prosecuting attorney unilaterally dismissed the charges
against Spak by entering a nolle prosequi.” Id. at 461.
On October 29, 2013, Spak filed a § 1983 malicious
prosecution claim. Id. The issue before the court was
on what date did Spak’s § 1983 claim accrue. Id. Spak
“argue[d] that his claim did not accrue on the date that
the charges against him were nolled, but thirteen
months later when Connecticut law mandated that
the records of his nolled prosecution be erased.” Id.
The court observed that “as a general matter a nolle
prosequi constitutes a ‘favorable termination’ for the
purpose of determining when a Section 1983 claim
accrues.” Id. at 463. But, the court did not hold that a
nolle prosequi is sufficient to satisfy the Heck requirement that a conviction or sentence be invalidated prior
to a plaintiff bringing a § 1983 damages claim that
would impugn the validity of that conviction or sentence. The court explained that
Heck and its progeny generally deal with
Section 1983 suits that are filed by plaintiffs
asserting that a prior criminal conviction is

71a
invalid, and seeking to recover damages for
the state’s abuse of legal process. Those decisions thus require that the plaintiff demonstrate that the outstanding conviction has
been conclusively invalidated in a manner
that demonstrates his innocence before he
can pursue his civil claim. They do not
address the type of termination at issue here,
in which a plaintiff was never convicted of a
criminal offense, but the charges against him
were dismissed in a manner that did not preclude future prosecution under a different
charging instrument.
Id. at 465. Spak makes clear that, for purposes of the
Heck bar, plaintiffs must show that their convictions
were invalidated. Spak does not provide any support
for a contention that a conviction that has been
vacated pursuant to a settlement agreement would be
sufficient to meet this requirement.
Finally, plaintiffs argue that the fact that the vacatur of their convictions was the result of the settlement
agreements does not mean that their convictions were
not invalidated for purposes of Heck. Plaintiffs cite to
Rosales-Martinez, 753 F.3d 890, in support of this
argument.
There, Rosales-Martinez was convicted in 2004 of
three drug charges and sentenced to a term of imprisonment of ten to twenty-five years. Id. at 892. At some
point thereafter, Rosales-Martinez filed a habeas petition in state court, alleging that the criminal history
of the confidential informant who testified against
him had not been disclosed to him. Id. “On December
2, 2008, the state District Court granted RosalesMartinez’s petition and ordered him released from
prison.” Id. Almost two years later, Rosales-Martinez

72a
filed a § 1983 suit in federal district court, alleging
Brady violations based on his allegations that the
defendants had failed to disclose the confidential
informant’s “criminal history during pre-trial proceedings, and even after his conviction.” Id. The federal district court dismissed RosalesMartinez’s complaint on
the grounds that it was barred by the statute of limitations, finding that Rosales-Martinez knew about
the Brady violations prior to the December 2, 2008
order releasing him from prison. Id. at 893. The Ninth
Circuit held that the district court erred because
Rosales-Martinez’s § 1983 claim “did not accrue until
the Nevada court vacated those convictions on
December 2, 2008[.]” Id. at 896.
That was not the end of the matter however because
Rosales-Martinez’s appeal was complicated by documents that had come to light during the pendency of
his appeal. While his case was on appeal to the Ninth
Circuit, it was discovered that Rosales-Martinez had
entered into a stipulated agreement on December 2,
2008, that provided he would plead guilty “to the least
serious of the charges of which he had been convicted”
and that the sentence for this charge would be “a certain portion of the time he served in custody.” Id. at
893. Rosales-Martinez also signed a guilty plea memorandum. Id. at 894. In “the minutes of a court proceeding based on the stipulation . . . the Washoe
County District Court ‘vacate[d] the convictions’ in
Rosales-Martinez’s criminal case ‘based on the cumulative errors . . . as alleged in his [habeas] petition.’”
Id.
The Ninth Circuit explained that
[t]he fact that Rosales-Martinez was reconvicted following the vacation of his initial
conviction, means that he still has an out-

73a
standing conviction. This outstanding conviction raises the question whether RosalesMartinez’s § 1983 action is barred by Heck’s
holding that “a claim for damages [based] on
a conviction or sentence that has not been so
invalidated is not cognizable.”
Id. at 897 (quoting Heck, 512 U.S. at 487). The Ninth
Circuit, however, did not answer this question, instead
remanding the matter to the district court to consider
it in the first instance. Id. at 899. In doing so, the
Ninth Circuit observed that
the district judge may wish to consider the
extent to which Rosales–Martinez can seek
compensatory damages based on the convictions that were vacated as invalid, and the
time he served on the count that remained
valid, for which he was given credit for 501
days of time served. The district judge may
also wish to consider whether any of the facts
Rosales–Martinez allocuted to in his December 2, 2008 plea are inconsistent with his
allegations in this § 1983 action.
Id. But, the Ninth Circuit did not hold that a conviction that has been vacated pursuant to a settlement
agreement is sufficient to meet the Heck invalidation
requirement.
In sum, plaintiffs have not shown that their convictions or sentences have been invalidated. Their convictions and sentences have been vacated. But that is not
the same thing for purposes of Heck. Heck requires a
showing that the conviction or sentence that the
§ 1983 claims would impugn has been “declared invalid by a state tribunal authorized to make such determination[.]” Heck, 512 U.S. at 487. No state tribunal

74a
has declared plaintiffs’ convictions and sentences
invalid. Plaintiffs’ § 1983, § 1985, and spoliation
claims are barred by Heck.
Because plaintiffs’ § 1983, § 1985, and spoliation
claims are barred by Heck, the court need not consider
defendants’ argument that plaintiffs’ claims are
barred by the settlement agreements.38 The court also
need not consider defendants’ alternative Rule 12(b)(7)
argument that the State of Alaska is an indispensable
party.
Conclusion
Defendants’ motion to dismiss is granted. Plaintiffs’
claims against defendants are dismissed. Plaintiffs’
negligence and negligent infliction of emotional distress claims are dismissed with prejudice. Plaintiffs’
§ 1983, § 1985, and spoliation claims are dismissed
without prejudice. Plaintiffs are not given leave to
amend these claims as amendment would be futile at
this time.
DATED at Anchorage, Alaska, this 22nd day of
October, 2018.
/s/ H. Russel Holland
United States District Judge

38

The court would note that plaintiffs only argue that the
claims release provisions in the settlement agreements are
unenforceable. They do not contend that other provisions in the
settlement agreements are unenforceable nor do they contend
that any of the terms of the stipulation were invalid.

75a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ALASKA
[Filed October 24, 2018]
————
Case Number 4:17-cv-00034-HRH
[Consolidated with 4:17-cv-00035-HRH]
————
MARVIN ROBERTS,
v.

Plaintiff,

CITY OF FAIRBANKS, et al.,
Defendant.
————
EUGENE VENT, et al.
v.

Plaintiff,

CITY OF FAIRBANKS, et al.
Defendant.
————
JUDGMENT IN A CIVIL CASE
JURY VERDICT. This action came before the
court for a trial by jury. The issues have been tried
and the jury has rendered its verdict.
X

DECISION BY COURT. This action came to
trial or decision before the court. The issues have
been tried or determined and a decision has been
rendered.

76a
IT IS ORDERED AND ADJUDGED:
THAT the plaintiffs’ complaints are dismissed.
APPROVED:
s/ H. Russel Holland
United States District Judge
Date: October 24, 2018
Lesley K. Allen
Clerk of Court

77a
APPENDIX D
962 F.3d 1165
UNITED STATES COURT OF APPEALS,
NINTH CIRCUIT
————
No. 18-35938
————
MARVIN ROBERTS; EUGENE VENT;
KEVIN PEASE; GEORGE FRESE,
Plaintiffs-Appellants,
v.
CITY OF FAIRBANKS; JAMES GEIER; CLIFFORD
AARON RING; CHRIS NOLAN; DAVE KENDRICK,
Defendants-Appellees.
————
Filed June 26, 2020
————
D.C. Nos. 4:17-cv-00034-HRH, 4:17-cv-00035-HRH
————
Attorneys and Law Firms
Anna Benvenutti Hoffmann (argued), Nick Brustin,
Richard Sawyer, and Mary McCarthy, Neufeld Scheck
& Brustin LLP, New York, New York; Mike Kramer
and Reilly Cosgrove, Kramer and Associates,
Fairbanks, Alaska; for Plaintiffs-Appellants Marvin
Roberts and Eugene Vent.
David Whedbee, Jeffrey Taren, Tiffany Cartwright,
and Sam Kramer, MacDonald Hoague & Bayless,
Seattle, Washington; Thomas R. Wickware, Fairbanks,
Alaska; for Plaintiffs-Appellants Kevin Pease and
George Frese.

78a
Matthew Singer (argued) and Peter A. Scully, Holland
& Knight LLP, Anchorage, Alaska, for DefendantAppellee City of Fairbanks.
Joseph W. Evans (argued), Law Offices of Joseph W.
Evans, Bremerton, Washington, for DefendantsAppellees James Geier, Clifford Aaron Ring, Chris
Nolan, and Dave Kendrick.
Samuel Harbourt, Orrick Herrington & Sutcliffe LLP,
San Francisco, California; Kelsi Brown Corkran,
Orrick Herrington & Sutcliffe LLP, Washington, D.C.;
for Amici Curiae Scholars.
Steven S. Hansen, CSG Inc., Fairbanks, Alaska, for
Amicus Curiae Tanana Chiefs Conference.
David B. Owens, Lillian Hahn, Benjamin Harris, and
Emily Sullivan, The Exoneration Project, Chicago,
Illinois, for Amici Curiae The Innocence Network,
American Civil Liberties Union, and ACLU of Alaska
Foundation.
ORDER
Before: Richard C. Tallman, Sandra S. Ikuta, and N.
Randy Smith, Circuit Judges.
Order; Dissent by Judge VanDyke
Judge Ikuta voted to grant the petition for rehearing
en banc. Judges Tallman and N.R. Smith recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc. A judge of the court requested a
vote on en banc rehearing. The matter failed to receive
a majority of votes of non-recused active judges in
favor of en banc consideration. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

79a
VANDYKE, Circuit Judge, joined by IKUTA, Circuit
Judge, dissenting from the denial of rehearing
en banc:
Decades ago, the Supreme Court ruled that a § 1983
plaintiff is generally barred from bringing a claim to
“recover damages for [an] allegedly unconstitutional
conviction or imprisonment, or for other harm . . .
[that] would render a conviction or sentence invalid.”
Heck v. Humphrey, 512 U.S. 477, 486–87, 114 S.Ct.
2364, 129 L.Ed.2d 383 (1994). The Court recognized
just four discrete exceptions to what has become
known as the “Heck bar” on such § 1983 claims—where
the plaintiff can prove “that the conviction or sentence
has been [1] reversed on direct appeal, [2] expunged by
executive order, [3] declared invalid by a state tribunal
authorized to make such determination, or [4] called
into question by a federal court’s issuance of a writ of
habeas corpus . . . .” Id. Drawing from the common law,
the Court said that “[j]ust as a cause of action for
malicious prosecution does not accrue until the criminal proceedings have terminated in the plaintiff’s
favor, so also a § 1983 . . . action for damages . . . does
not accrue until the conviction or sentence has been
invalidated.” Id. at 489–90, 114 S.Ct. 2364.
The split panel decision in this case created an
additional exception to the Heck bar that, as far as I
can tell, is unprecedented—not only in our circuit, but
across the federal courts. It did so by reinterpreting
Heck’s favorable termination requirement into something less than even a neutral termination requirement. In doing so, it expressly refused to apply the
“hoary principle[s]” adopted from the malicious prosecution context that were the express basis for the
majority’s decision in Heck. Id. at 486, 114 S.Ct. 2364.
Now, in every situation where a criminal defendant’s

80a
conviction is ministerially vacated without any judicial determination that the conviction was actually
“invalid,” this new exception casts into doubt the Heck
bar’s applicability. This includes in the many states
in our circuit that have statutes that automatically
vacate some convictions once the defendant has served
his sentence. Heck is a quarter-century old, and its
better-established exceptions already bedevil federal
courts across the country, including this one. The fact
that no other court has conceived or applied the panel
majority’s new exception in over 25 years of applying
Heck should be reason enough for this Court to rehear
this case en banc before cracking this lid on Pandora’s
box.
I.
The four § 1983 plaintiffs in this case were tried and
convicted of murder in 1997. Roberts v. City of
Fairbanks, 947 F.3d 1191, 1193–94 (9th Cir. 2020).
Their prison sentences ranged from 30 to 77 years. Id.
at 1194. Several years after their convictions, a man
named William Holmes “confessed to his involvement
in the murder and named Jason Wallace and three
other men as the actual perpetrators of the crime.”
Id. Based in part on this confession, the “[p]laintiffs
filed post-conviction relief (‘PCR’) petitions in Alaska
Superior Court in September 2013.” Id. The state
court determined that the PCR petitions alleged “a
prima facie case of actual innocence,” and as a result,
the plaintiffs engaged in discovery for two years. Id. At
the close of discovery, the parties participated in “a
five-week evidentiary hearing from October through
November of 2015.” Id. At the conclusion of the
hearing, the judge told the parties that he would reach
a decision in six to eight months. Id. at 1195.

81a
After the hearing but before a decision, the prosecutors extended an offer to plaintiffs in which they would
“consent to vacating the convictions and dismissing
the charges, but only if all four plaintiffs agreed to
release the State of Alaska and the City of Fairbanks
(and their employees) from any liability related to the
convictions.” Id. Rather than await the state court’s
ruling on their PCR petitions, the plaintiffs executed
settlement agreements with the State of Alaska and
the City of Fairbanks and filed the settlement agreements in the Alaska Superior Court. Id. The parties
“jointly stipulated that the court would be asked
to vacate [p]laintiffs’ convictions.” Id. The settlement
agreement confirmed that “[t]he parties have not
reached agreement as to [plaintiffs’] actual guilt or
innocence.” Id. Instead, the plaintiffs specifically
“stipulate[d] and agree[d] that the original jury verdicts and judgments of conviction were properly and
validly entered based on proof beyond a reasonable
doubt.” Id. The parties further “stipulate[d] and
agree[d] that there [was] sufficient new evidence of
material facts that a new trial could be ordered,” and
“that this [state] Court may immediately enter Orders
vacating the Judgments of Conviction . . . and awarding each [plaintiff] the relief of a new trial for each of
the charges for which [plaintiffs] were convicted.” Id.
The state court held a settlement hearing on
December 17, 2015 where all parties participated. Id.
At the hearing, the court stated that its duty was to
“ministerially sign the orders necessary to [e]ffect the
decision of the attorney general,” and after concluding
that the parties’ settlement was “procedurally proper,”
the court acknowledged that it “had no authority to . . .
review or to criticize” the decision made by the state
attorney general to enter into this agreement. Id.
At the end of the hearing, the state “court vacated

82a
[p]laintiffs’ convictions, the prosecutors dismissed
all indictments, and [plaintiffs] were released from
prison.”1 Id. Plaintiffs also dismissed their pending
PCR petitions. Id. at 1206 (Ikuta, J., dissenting). The
four plaintiffs have not subsequently been prosecuted,
“and no new trial was ever ordered following the 2015
hearing.” Id. at 1195.
Notwithstanding the terms of the settlement agreements and the parties’ stipulations, the plaintiffs on
December 7, 2017 filed a § 1983 cause of action—
including a § 1983 deprivation of liberty claim and a
§ 1983 malicious prosecution claim—against the City
of Fairbanks and four of its officers. Id. at 1207 (Ikuta,
J., dissenting). The defendants moved to dismiss, and
the district court granted the motion and denied
plaintiffs’ request to amend their complaint. Id. at
1196. Applying Heck v. Humphrey, the district court
held “that vacatur of convictions pursuant to a settlement agreement was insufficient to render the convictions invalid” because “the parties’ stipulate[ed] that
‘the original jury verdicts and judgments of conviction
were properly and validly entered based on proof
beyond a reasonable doubt.’” Id. (citation omitted). The
district court pointed out that “the Superior Court . . .
vacate[d] plaintiffs’ convictions pursuant to the settlement agreements and the stipulation. The Superior
Court did not declare their convictions invalid.” Id.
Plaintiffs timely appealed. Id.
The primary question answered by the panel on
appeal was “whether § 1983 plaintiffs may recover
damages if the convictions underlying their claims
were vacated pursuant to a settlement agreement.” Id.
1

One of the plaintiffs was already on supervised parole but
agreed to this arrangement along with the other three plaintiffs.

83a
at 1193. The majority concluded that when “all convictions underlying § 1983 claims are vacated and no
outstanding criminal judgments remain, Heck does
not bar plaintiffs from seeking relief under § 1983.” Id.
In reaching that conclusion, the majority acknowledged that the plaintiffs’ vacatur-by-settlement in this
case would not satisfy the common law’s favorabletermination requirement, but opined that “Heck’s
favorable-termination requirement is distinct from the
favorable-termination element of [the common law]
malicious-prosecution claim.” Id. at 1201.
II.
In Heck v. Humphrey, the Supreme Court addressed
when someone who has been convicted of a crime may
seek § 1983 damages for an alleged unconstitutional
prosecution or imprisonment related to that conviction. The Court held that a § 1983 complaint in
that context “must be dismissed unless the plaintiff
can demonstrate that the conviction or sentence has
already been invalidated.” Heck v. Humphrey, 512
U.S. 477, 487, 114 S.Ct. 2364, 129 L.Ed.2d 383 (1994).
The Court provided four specific ways that a plaintiff
could show the conviction had been “so invalidated”:
“that the conviction or sentence has been [1] reversed
on direct appeal, [2] expunged by executive order,
[3] declared invalid by a state tribunal authorized to
make such determination, or [4] called into question
by a federal court’s issuance of a writ of habeas corpus.” Id. at 486–87, 114 S.Ct. 2364. “A claim for
damages . . . relat[ing] to a conviction or sentence that
has not been so invalidated is not cognizable under
§ 1983.” Id. at 487, 114 S.Ct. 2364. “[A]s a cause
of action for malicious prosecution does not accrue
until the criminal proceedings have terminated in the
plaintiff’s favor, so also a § 1983 cause of action for

84a
damages attributable to an unconstitutional conviction or sentence does not accrue until the conviction or
sentence has been invalidated.” Id. at 489–90, 114
S.Ct. 2364 (emphasis added; citations omitted). The
Court made clear that this “favorable termination”
requirement, borrowed from the common law’s malicious prosecution tort, was not merely an exhaustion
requirement, but was an actual element of a § 1983
claim challenging wrongful prosecution or imprisonment.
Justice Souter inked a concurrence in Heck wherein
he took issue with the Court’s heavy reliance on the
common-law tort of malicious prosecution. Id. at 491–
503, 114 S.Ct. 2364 (Souter, J., concurring). He had no
problem with looking to the malicious prosecution tort
as a “starting point” in determining when a § 1983
claim can be brought by someone convicted of a crime,
but disapproved that the Heck majority had incorporated the tort’s “favorable termination” requirement
as an actual element of a § 1983 claim in this context.
Id. at 492–98, 114 S.Ct. 2364. Justice Souter argued
that the four discrete “events” the majority said could
demonstrate a prior conviction had been “invalidated”
were not actually consistent with the historical understanding of a “favorable termination” in the malicious
prosecution context. Id. at 496, 114 S.Ct. 2364. According to Justice Souter, even the Heck exceptions might
not, without more, qualify as a “favorable termination”
as the tort was historically understood and applied. Id.
Moreover, Justice Souter expressed alarm that if a
§ 1983 plaintiff is required to show his conviction was
“invalidated” in a manner similar to the “favorable
termination” requirement at common law—that is,
if the “invalidated” requirement is applied as an
affirmative element of a § 1983 claim—then it would
continue to bar a § 1983 suit even after the convicted

85a
person was no longer in custody and could no longer
bring a habeas suit. Id. at 499–502, 114 S.Ct. 2364.
The Heck majority did not leave Justice Souter’s
criticisms unanswered. First, the Court simply disagreed with Justice Souter’s claim that the common
law “favorable termination” requirement was dissimilar from the four specific “invalidating” events it listed.
Id. at 484 n.4, 114 S.Ct. 2364. But even if Justice
Souter was right that not all of the four Heck exceptions historically would have permitted a plaintiff to
bring a malicious prosecution claim, the majority said
that would only mean the four exceptions should
have been narrower. Id. (arguing that “even if Justice
Souter were correct . . . [t]hat would, if anything,
strengthen our belief that § 1983, which borrowed
general tort principles, was not meant to permit such
collateral attack”).
Second, the Court squarely rejected Justice Souter’s
argument that the Heck bar should only apply to
someone who is still incarcerated or can otherwise still
bring a habeas action to challenge his conviction. “We
think the principle barring collateral attacks—a
longstanding and deeply rooted feature of both the
common law and our own jurisprudence—is not rendered inapplicable by the fortuity that a convicted
criminal is no longer incarcerated.” Id. at 490, 114
S.Ct. 2364 n.10.
Since Heck, the Supreme Court has continued to
apply Heck’s favorable termination requirement as
borrowed from the common law malicious prosecution
context. A decade after Heck, the Court restated its
Heck holding: “we held [in Heck] that where success in
a prisoner’s § 1983 damages action would implicitly
question the validity of conviction or duration of sentence, the litigant must first achieve favorable termi-

86a
nation of his available state, or federal habeas,
opportunities to challenge the underlying conviction or
sentence.” Muhammad v. Close, 540 U.S. 749, 751, 124
S.Ct. 1303, 158 L.Ed.2d 32 (2004) (per curiam). Then,
only a few years ago, the Supreme Court explained
that “[i]n defining the contours and prerequisites of a
§ 1983 claim, including its rule of accrual, courts are
to look first to the common law of torts.” Manuel v. City
of Joliet, ––– U.S. ––––, 137 S. Ct. 911, 914, 197
L.Ed.2d 312 (2017). The Court cited Heck as an
example, and noted “[s]ometimes, that review of
common law will lead a court to adopt wholesale the
rules that would apply in a suit involving the most
analogous tort.” Id. at 920–21 (emphasis added). And
just last year, the Supreme Court again reviewed a
§ 1983 statute of limitations issue to resolve whether
a claim accrues upon acquittal or when fabricated
evidence is introduced. McDonough v. Smith, –––
U.S. ––––, 139 S. Ct. 2149, 2153, 204 L.Ed.2d 506
(2019). The Court concluded that “[t]he statute of
limitations for a fabricated-evidence claim . . . does not
begin to run until the criminal proceedings against the
defendant . . . have terminated in his favor.” Id. at
2154–55. This result “follows both from the rule for the
most natural common-law analogy (the tort of malicious prosecution) and from the practical considerations that have previously led this Court to defer
accrual of claims that would otherwise constitute an
untenable collateral attack on a criminal judgment.”
Id. at 2155. “Only once the criminal proceeding has
ended in the defendant’s favor, or a resulting conviction has been invalidated within the meaning of
Heck . . . will the statute of limitations begin to run.”
Id. at 2158 (internal citation omitted).

87a
III.
The panel majority in this case divorced Heck’s
favorable termination requirement from its common
law roots. Taking inspiration from passing comments
in Rosales-Martinez v. Palmer, 753 F.3d 890 (9th Cir.
2014) and Taylor v. County of Pima, 913 F.3d 930 (9th
Cir. 2019), the panel majority concluded that a ministerial vacatur pursuant to a settlement agreement is a
“favorable termination” within the meaning of Heck,
and therefore the Heck bar doesn’t apply. Roberts, 947
F.3d at 1198–1203. But “neither [Rosales-Martinez nor
Taylor] holds that a vacatur by settlement qualifies as
a favorable termination under Heck.” Id. at 1211
(Ikuta, J., dissenting).
Rosales-Martinez sought damages under § 1983 for
an allegedly unlawful conviction and imprisonment
resulting from defendants’ constitutional error. 753
F.3d at 891. He alleged that after the constitutional
error came to light while he was imprisoned, “the
Nevada state courts recognized the constitutional
error, granted his petition for a writ of habeas corpus,
and ordered him freed.” Id. He filed a § 1983 lawsuit
nearly two years after the alleged order. See id. The
district court dismissed his lawsuit on the ground that
the two-year statute of limitations began to run when
he first learned of the constitutional errors, and thus
had already expired when he filed his claim. Id. at 891.
On appeal, this Court reversed, concluding that
“[p]ursuant to Heck . . . [plaintiff’s] cause of action did
not accrue until his conviction was held invalid.” Id.
Rosales-Martinez is somewhat confusing because
the parties on appeal put forth contradictory views of
what had actually happened to Rosales-Martinez’s
conviction in the state courts. Rosales-Martinez alleged that the state court granted his habeas petition

88a
and then ordered him released. Id. at 894. But relying
on information submitted on appeal “at the eleventh
hour,” the defendants argued that the state court
actually vacated the plaintiff’s conviction and released
him as the result of a stipulated agreement: that
plaintiff’s conviction would be “vacated based on . . .
cumulative errors” and the prosecution would recommend a sentence of time already served in exchange
for Rosales-Martinez pleading guilty to one of the
original crimes and dismissing his habeas petition. Id.
at 894–95. It is not entirely clear therefore whose
version of events the court in Rosales-Martinez was
referencing when it concluded that “Heck therefore
teaches that Rosales-Martinez’s claims did not accrue
until the Nevada court vacated those convictions on
December 2, 2008.” Id. at 896 (emphasis added).
The panel majority in this case highlights the above
statement from Rosales-Martinez to assert that the
court “implicitly held that vacating a conviction pursuant to a settlement agreement serves to invalidate the
conviction under Heck.” Roberts, 947 F.3d at 1200. But
for several reasons, that significantly over-characterizes
the Rosales-Martinez Court’s consideration of vacatur
as a means of invalidation.
First, it isn’t clear which version of the parties’
stories the Rosales-Martinez Court had in mind when
it made this statement. If it was the plaintiff’s version,
then the case didn’t involve vacatur-by-agreement at
all because applying this version of the facts would
result in a straightforward and uncontroversial application of Heck’s third type of favorable termination:
“declared invalid by a state tribunal. . . .” Heck, 512
U.S. at 486, 114 S.Ct. 2364. There is some indication
that this was the case, since the Court in RosalesMartinez didn’t analyze the impact of the “more

89a
complicated picture of events than the simple allegation of [plaintiff’s] complaint” until a later section of
the opinion (Section V). See 753 F.3d at 897–99.
Ultimately, because of the different facts presented by
the government on appeal, the Court ordered that the
“viability and scope of Rosales-Martinez’s § 1983
claim, in relation to Heck v. Humphrey and pursuant
to Jackson should be evaluated by the district judge on
remand.” Id. at 899. Thus, “our decision in RosalesMartinez to reverse the district court was not based
on the finding that Heck permits a § 1983 action
whenever a conviction has been vacated pursuant to a
settlement agreement.” Roberts, 947 F.3d at 1211
(Ikuta, J., dissenting).
Even if the court in Rosales-Martinez was referencing vacatur-by-agreement, that still would not support
the rule announced in Roberts. As just noted, the
Rosales-Martinez Court didn’t ultimately decide the
Heck bar was inapplicable in that case; it remanded it
to the district court to analyze in the first instance. 753
F.3d at 899. Because of the factual confusion, it is not
terribly surprising that Rosales-Martinez never analyzed whether vacatur-by-agreement counts as “invalidation” or a “favorable termination” under Heck. That
issue wasn’t even raised until the “eleventh hour” of
the appeal, id. at 894, and was ultimately remanded
to the district court to sort out. So if some stray
statement by the Rosales-Martinez Court did equate
vacatur-by-agreement with invalidation (which, again,
it is not clear it did), the statement was made in
passing and with no analysis. See, e.g., In re
Magnacom Wireless, LLC, 503 F.3d 984, 993–94 (9th
Cir. 2007) (“In our circuit, statements made in passing, without analysis, are not binding precedent.”);
Estate of Magnin v. C.I.R., 184 F.3d 1074, 1077 (9th
Cir. 1999) (“When a case assumes a point without

90a
discussion, the case does not bind future panels.”); see
also United States v. Paul, 583 F.3d 1136, 1138 (9th
Cir. 2009) (O’Scannlain, J., dissenting from the denial
of rehearing en banc) (“ ‘[C]ases that do not actually
analyze the issue . . . and cases that erroneously rely
on those cases for their implicit assumptions’ do not
bind future panels.”) (quoting in part Guerrero v. RJM
Acquisitions LLC, 499 F.3d 926, 937 (9th Cir. 2007)).
Relying on Rosales-Martinez as somehow sanctioning or even previewing the rule applied by the Roberts
majority is therefore an overreading of RosalesMartinez. The most that can be said is that RosalesMartinez is not inconsistent with the Roberts rule. But
that can be said about most cases—even most cases
applying Heck—because, like Rosales-Martinez, most
of those cases do not actually consider and analyze
whether a vacatur-by-agreement suffices to meet
Heck’s favorable termination requirement.
Taylor v. County of Pima, 913 F.3d 930 (9th Cir.
2019), is a closer call. In Taylor, “a jury convicted Louis
Taylor . . . of 28 counts of felony murder” in 1972 “on
the theory that he had started a deadly fire at a Tucson
hotel.” Id. at 932. While still in prison, Taylor in 2012
sought post-conviction relief based on new evidence
that “arson did not cause the hotel fire.” Id. (emphasis
in original). Taylor entered into a plea agreement with
the government in 2013 whereby his “original convictions were vacated and, in their place, Taylor pleaded
no contest to the same counts, was resentenced to time
served, and was released from prison.” Id. Taylor then
sued the County of Pima and the City of Tucson
pursuant to § 1983 “alleging violations of his constitutional rights to due process and a fair trial.” Id.
The district court dismissed Taylor’s § 1983 wrongful incarceration damages claim as barred by Heck. Id.

91a
at 935–36. On appeal, the panel majority said: “Here,
Taylor’s 1972 jury conviction has been vacated by the
state court, so Heck poses no bar to a challenge to that
conviction or the resulting sentence.” Id. at 935. But
the court observed that “Taylor’s 2013 conviction,
following his plea of no contest, remains valid,” and
“all of the time that Taylor served in prison is
supported by the valid 2013 state-court judgment.” Id.
The Taylor Court thus affirmed the district court’s
dismissal of Taylor’s § 1983 claim as Heck-barred. Id.
at 936.
The Roberts majority is correct that the Taylor
majority did equate a vacatur-by-settlement with a
favorable termination under Heck. See id. at 935
(“Here, Taylor’s 1972 jury conviction has been vacated
by the state court [under a vacatur-by-agreement
settlement], so Heck poses no bar to a challenge to that
conviction or the resulting sentence.”).
Taylor is the strongest support for the holding in
Roberts. But Taylor’s conclusion that the Heck bar did
not apply to Taylor’s vacated conviction was classic
dicta—it made no difference in the case because Taylor
was still Heck-barred by his second conviction and his
§ 1983 claims were dismissed. Moreover, “Taylor
offered no reasoning to support its offhand comment”
that a vacated conviction is not barred by Heck, and
there is no analysis in Taylor of why a vacaturby-agreement satisfies Heck’s favorable termination
requirement. Roberts, 947 F.3d at 1212 (Ikuta, J.,
dissenting). There is just the one sentence from Taylor
that the Roberts majority relies on. That is it.
So Taylor certainly did not mandate the result in
Roberts. The Taylor majority’s passing statement “was
not necessary to its holding,” id., was unreasoned, and
did not affect the ultimate result in Taylor because

92a
Taylor’s 2013 plea barred his § 1983 claim under Heck.
Its sentence was dicta “made in passing, without analysis,” and “not binding precedent.” In re Magnacom
Wireless, LLC, 503 F.3d at 993–94; see also United
States v. Johnson, 256 F.3d 895, 915 (9th Cir. 2001).
But unlike in Taylor, the “Roberts exception” is now
binding precedent—because of Roberts, the law in the
Ninth Circuit is now that a vacatur-by-agreement of
the parties is a favorable termination under Heck.
The practical effects of the negotiated vacatur in this
case also reveal how the Roberts exception differs from
an overturned conviction on appeal, executive expungement, and direct invalidation by an authorized court.
For instance, the § 1983 plaintiffs agreed that their
convictions were “properly and validly” secured in
exchange for their release from custody. While the
plaintiffs can rightfully assert that release from custody was a favorable result, they also expressly agreed
that the convictions were “properly and validly” obtained. This concession by the plaintiffs that their
convictions were valid cannot mean that their convictions were invalidated—it means the opposite. At best,
this compromise constituted a neutral disposition of
the convictions because the convictions were vacated
without any discussion as to the plaintiffs’ actual guilt
or innocence. At worst, this was a less-than-neutral
termination of the convictions because all parties
agreed that the convictions were still valid—just as
someone who would have agreed to time-served in
exchange for release from prison.2
2

Even if this Court wanted to add the Roberts exception to the
four Heck exceptions, this was not the proper case to do so. Here,
all parties agreed the convictions were valid. Under the plain
language of Heck, the still-valid convictions bar the plaintiffs’
§ 1983 claims.

93a
IV.
The Supreme Court has not stepped away from
Heck’s favorable termination requirement, and the
Roberts exception is irreconcilable with Heck’s favorable termination rule. “[V]acatur by settlement is not—
and never was—recognized as a favorable termination
at common law, so the majority’s attempt to recognize
it as a fifth means of favorable termination under Heck
squarely contradicts Heck’s reliance on the ‘common
law of torts.’ ” Roberts, 947 F.3d at 1214–15 (Ikuta, J.,
dissenting) (citing Heck, 512 U.S. at 483, 114 S.Ct.
2364). Two facts amplify this inconsistency.
First, the Roberts majority does not dispute that its
rule is inconsistent with the common law’s favorable
termination rule from the malicious prosecution
context. Id. at 1201. Instead, the majority insists that
“Heck’s favorable-termination requirement is distinct
from the favorable-termination element of a maliciousprosecution claim.” Id. But this is not a faithful
application of Heck—especially as illuminated by the
back-and-forth between the Court and Justice Souter’s
concurrence. Justice Souter’s entire complaint in Heck
was that the Court was too extensively and too woodenly borrowing from the malicious prosecution tort in
interpreting § 1983. Tellingly, the Court in Heck was
unapologetic and responded tit-for-tat to “Justice
Souter’s critici[sm of] our reliance on malicious prosecution’s favorable termination requirement.” Heck,
512 U.S. at 484 n.4, 114 S.Ct. 2364.
In arguing that the Heck and malicious prosecution
favorable termination requirements are different, the
Roberts majority relies primarily on the argument that
Heck’s four specific exceptions do not map on perfectly
to the historical understanding of the malicious
prosecution tort. 947 F.3d at 1201–03. But this does no

94a
more than rehash Justice Souter’s argument in Heck.
See Heck, 512 U.S. at 496, 114 S.Ct. 2364 (Souter, J.,
concurring). The Supreme Court forcefully rejected
that argument then (see id. at 484 n.4, 114 S.Ct. 2364),
and we can’t resurrect it to reinterpret Heck’s favorable termination requirement now. Especially when,
just a few years ago, the Supreme Court reiterated
that in Heck it had previously “adopt[ed] wholesale the
rules that would apply in a suit involving the most
analogous tort”—i.e., the malicious prosecution tort.
Manuel, 137 S. Ct. at 920–21 (emphasis added).
Second, the fact that, in the quarter century since
Heck was decided, no other court has applied the
Roberts exception to the Heck bar is good reason to
think carefully before we lock that in as the law in
our circuit. As explained, until Roberts, none of
this Court’s precedents required that a vacatur-byagreement be interpreted as a favorable termination
under Heck. There are probably many good reasons for
that, but one very serious concern comes to mind.
Many states in our circuit allow for convictions to be
automatically vacated after an offender has served his
sentence. See, e.g., Cal. Penal Code § 1203.4 (describing how verdicts may be vacated once a defendant
fulfills the conditions of probation); Cal. Penal Code
§ 1203.41 (outlining how defendants may change their
pleas and set aside a guilty verdict without a judicial
determination that the plea or verdict was invalid);
Wash. Rev. Code Ann. § 9.94A.640(1) (detailing how
defendants can vacate their record of conviction after
completing their sentences); Or. Rev. Stat. § 137.225
(“[A]t any time after the lapse of three years from the
date of pronouncement of judgment, any defendant
who has fully complied with and performed the sentence of the court . . . may apply to the court where the
conviction was entered for entry of an order setting

95a
aside the conviction.”); Ariz. Rev. Stat. § 13-905
(“[E]very person convicted of a criminal offense, on
fulfillment of the conditions of probation or sentence
and discharge by the court, may apply to the court to
have the judgment of guilt set aside.”); Ariz. Rev. Stat.
§ 13-909 (allowing sex trafficking victims to vacate
certain convictions); Nev. Rev. Stat. § 179.247 (providing certain nonviolent offenders with the option of
vacating their judgment and sealing their records of
conviction); Haw. Rev. Stat. § 712-1209.6 (giving convicted prostitutes the ability to vacate their convictions); Wash. Rev. Code Ann. § 10.05.120 (instructing
courts to dismiss charges after the defendant successfully completes a deferred prosecution program);
Mont. Code. Ann. § 46-16-130 (requiring automatic
dismissal of prosecution upon compliance with the
terms of a pre-trial diversion program); Nev. Rev. Stat.
§ 174.033 (mandating the dismissal of charges following a defendant’s completion of “the terms and conditions of a preprosecution diversion program”); Or. Rev.
Stat. § 135.891 (confirming that criminal charges will
be dismissed with prejudice when a defendant fulfills
the requirements of a diversion agreement); Ariz. Rev.
Stat. § 11-361 (“[T]he county attorney of a participating county may divert or defer, before a guilty plea or
a trial, the prosecution of a person who is accused of
committing a crime. . . .”); Haw. Rev. Stat. § 853-1
(deferring further proceedings when a defendant
enters a guilty or nolo contendere plea to allow the
defendant to participate in a deferred prosecution
program that requires dismissal of the criminal
charges upon completion of the program); Alaska Stat.
§ 12.55.078 (permitting deferred adjudication wherein
a defendant serves a term of probation in exchange for
the dismissal of the criminal proceedings); Mont.
Code. Ann. § 46-18-1104 (describing the conditions for

96a
expungement of misdemeanors); Idaho Code § 19-2604
(authorizing courts to terminate a sentence, set aside
a guilty plea or conviction, and dismiss the case if
the court determines “there is no longer cause for
continuing the period of [defendant’s] probation”).
Perhaps anticipating this issue, the Second Circuit
and Third Circuit have rejected the argument that a
mere neutral termination of a conviction can overcome
the Heck bar. In the Second Circuit, petitioner Roesch
participated in accelerated pretrial rehabilitation, and
after he successfully finished “the two-year probationary period, the State Court dismissed the charges
against him.” Roesch v. Otarola, 980 F.2d 850, 852 (2d
Cir. 1992). Roesch then filed a § 1983 action seeking
damages and alleging in part that “various parties
conspired to cause his arrest and incarceration without probable cause.” Id. The Second Circuit held “that
a dismissal pursuant to the Connecticut accelerated
pretrial rehabilitation program is not a termination in
favor of the accused for purposes of a civil rights suit.”
Id. at 853. “A person who thinks there is not even
probable cause to believe he committed the crime with
which he is charged must pursue the criminal case to
an acquittal or an unqualified dismissal, or else waive
his section 1983 claim.” Id.
Similarly, in the Third Circuit, petitioner Petit participated in the Accelerated Rehabilitative Disposition
(ARD) program wherein he avoided trial, served no jail
time, and received an expungement of his record after
completing a probationary period. Gilles v. Davis, 427
F.3d 197, 209 (3d Cir. 2005). Petit then brought a §
1983 action against public officials seeking damages.
Id. at 203, 208–09. The Third Circuit applied the Heck
bar, id. at 209–10, and held that “the ARD program is
not a favorable termination under Heck.” Id. at 211.

97a
The reasoning in Roesch and Gilles aligns with
Heck’s favorable termination requirement as described
in Judge Ikuta’s dissent in Roberts, not the majority’s
decision. The Roberts decision will, at worst, require
this Court in future panels to reach the opposite
conclusion as our sister circuits with regard to § 1983
claims related to convictions that have been “invalidated” by state expungement statutes or goodbehavior programs. At best, future panels will be
required to creatively cabin Roberts or “ ‘impermissibly risk parallel litigation and conflicting judgments.’”
Roberts, 947 F.3d at 1208 (Ikuta, J., dissenting)
(quoting McDonough, 139 S. Ct. at 2160). Even though
“one purpose of the favorable-termination rule is to
avoid the risk that a criminal conviction could be
deemed valid in the criminal context and invalid in the
civil context,” the Roberts exception now requires this
Court to engage in judicial gymnastics to determine
whether a § 1983 plaintiff may attack a conviction that
has not actually been declared invalid by an authorized state tribunal. Id. at 1213 (Ikuta, J., dissenting)
(citing Heck, 512 U.S. at 484–85, 114 S.Ct. 2364).
V.
“Heck makes clear that plaintiffs ‘must’ show that
their convictions were terminated in one of four
specific ways,” and “[v]acatur by settlement is not on
the list. . . .” Roberts, 947 F.3d at 1213–14 (Ikuta, J.,
dissenting). Here, “[n]o court has ruled on the validity
of the plaintiffs’ prior convictions or made a finding as
to the plaintiffs’ guilt or innocence.” Id. at 1209–10
(Ikuta, J., dissenting). Instead, the plaintiffs expressly
agreed that their convictions were “validly entered
based on proof beyond a reasonable doubt.” Id. at 1203.
Because nothing in the record shows that the convictions are invalid (it shows just the opposite), “Heck

98a
precludes plaintiffs from bringing a § 1983 action. . . .”
Id. at 1212 (Ikuta, J., dissenting).
In the face of controlling Supreme Court precedent,
the split-panel majority in Roberts created a novel
exception to reach a result inconsistent with Heck. We
should have considered this inconsistency en banc
before cementing it as binding precedent in our circuit.
I respectfully dissent from the denial of rehearing
en banc.

